<html>
<title> - HEARING TO REVIEW FOREST RESOURCE MANAGEMENT IN NORTHERN WISCONSIN</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                   HEARING TO REVIEW FOREST RESOURCE
                    MANAGEMENT IN NORTHERN WISCONSIN

=======================================================================



                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON DEPARTMENT OPERATIONS,
                   OVERSIGHT, NUTRITION, AND FORESTRY

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                      July 20, 2009, Appleton, WI

                               __________

                           Serial No. 111-26


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov


                        COMMITTEE ON AGRICULTURE


                  U.S. GOVERNMENT PRINTING OFFICE
52-846                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                COLLIN C. PETERSON, Minnesota, Chairman

TIM HOLDEN, Pennsylvania,            FRANK D. LUCAS, Oklahoma, 
    Vice Chairman                    Ranking Minority Member
MIKE McINTYRE, North Carolina        BOB GOODLATTE, Virginia
LEONARD L. BOSWELL, Iowa             JERRY MORAN, Kansas
JOE BACA, California                 TIMOTHY V. JOHNSON, Illinois
DENNIS A. CARDOZA, California        SAM GRAVES, Missouri
DAVID SCOTT, Georgia                 MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                STEVE KING, Iowa
STEPHANIE HERSETH SANDLIN, South     RANDY NEUGEBAUER, Texas
Dakota                               K. MICHAEL CONAWAY, Texas
HENRY CUELLAR, Texas                 JEFF FORTENBERRY, Nebraska
JIM COSTA, California                JEAN SCHMIDT, Ohio
BRAD ELLSWORTH, Indiana              ADRIAN SMITH, Nebraska
TIMOTHY J. WALZ, Minnesota           ROBERT E. LATTA, Ohio
STEVE KAGEN, Wisconsin               DAVID P. ROE, Tennessee
KURT SCHRADER, Oregon                BLAINE LUETKEMEYER, Missouri
DEBORAH L. HALVORSON, Illinois       GLENN THOMPSON, Pennsylvania
KATHLEEN A. DAHLKEMPER,              BILL CASSIDY, Louisiana
Pennsylvania                         CYNTHIA M. LUMMIS, Wyoming
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
BETSY MARKEY, Colorado
FRANK KRATOVIL, Jr., Maryland
MARK H. SCHAUER, Michigan
LARRY KISSELL, North Carolina
JOHN A. BOCCIERI, Ohio
SCOTT MURPHY, New York
EARL POMEROY, North Dakota
TRAVIS W. CHILDERS, Mississippi
WALT MINNICK, Idaho

                                 ______

                           Professional Staff

                    Robert L. Larew, Chief of Staff

                     Andrew W. Baker, Chief Counsel

                 April Slayton, Communications Director

                 Nicole Scott, Minority Staff Director

                                 ______

   Subcommittee on Department Operations, Oversight, Nutrition, and 
                                Forestry

                     JOE BACA, California, Chairman

HENRY CUELLAR, Texas                 JEFF FORTENBERRY, Nebraska, 
STEVE KAGEN, Wisconsin               Ranking Minority Member
KURT SCHRADER, Oregon                STEVE KING, Iowa
KATHLEEN A. DAHLKEMPER,              JEAN SCHMIDT, Ohio
Pennsylvania                         CYNTHIA M. LUMMIS, Wyoming
TRAVIS W. CHILDERS, Mississippi

               Lisa Shelton, Subcommittee Staff Director

                                  (ii)


                             C O N T E N T S

                              ----------                              
                                                                   Page
Baca, Hon. Joe, a Representative in Congress from California, 
  opening statement..............................................     1
Kagen, Hon. Steve, a Representative in Congress from Wisconsin, 
  opening statement..............................................     3

                               Witnesses

Higgins, Jeanne, Forest Supervisor, Chequamegon-Nicolet National 
  Forest, Eastern Region, U.S. Forest Service, USDA, Park Falls, 
  Wisconsin......................................................     4
    Prepared statement...........................................     7
    Supplemental material........................................    16
Frank, Matthew J., Secretary, Wisconsin Department of Natural 
  Resources, Madison, Wisconsin..................................    17
    Prepared statement...........................................    18
    Supplemental material........................................    25
Schienebeck, Henry, Executive Director, Great Lakes Timber 
  Professionals Association, Rhinelander, Wisconsin..............    35
    Prepared statement...........................................    37
Dixon, Kathrine, Staff Attorney, Environmental Law and Policy 
  Center, Chicago, Illinois......................................    38
    Prepared statement...........................................    41
    Supplemental material........................................    49
Johnson, William E. ``Bill,'' President, Johnson Timber, Hayward, 
  Wisconsin......................................................    73
    Prepared statement...........................................    75
Zimmer, Gary, Senior Regional Wildlife Biologist, The Ruffed 
  Grouse Society, Laona, Wisconsin...............................    78
    Prepared statement...........................................    80

                           Submitted Material

Bartz, David P., Sturgeon Bay, Wisconsin.........................    94
Connor, Gordon P., President, Nicolet Hardwoods Corp., Laona, 
  Wisconsin......................................................    96
Gehlhoff, Wendy, Director, Florence County Economic Development 
  Commission, Florence, Wisconsin................................   101
Guthrie, Steve, Woodlands Manager, Nicolet Hardwoods Corporation, 
  Laona, Wisconsin...............................................   105
Harrison, Steward P., and Schwantes, Michael J., Partners, 
  Timberland Power Company, a division of Creative Energy and 
  Data Solutions, LLC, Green Bay, Wisconsin......................   106
Hogue, Richard R., Clam Lake, Wisconsin..........................   114
Kariainen, Steve, Resource Manager, Louisiana Pacific 
  Corporation, Hayward, Wisconsin................................   115
Leach, Ph.D., Mark K., Bro Professor of Regional Sustainable 
  Development and Associate Professor of Biology, Northland 
  College, Ashland, Wisconsin....................................   116
Nehrbass, Christopher, Werner, Shahla M., and Uram, Eric, John 
  Muir Chapter, Sierra Club, Madison, Wisconsin..................   119
Ouellette, MD, John J., private land owner, Madison, Wisconsin...   123
Quast, Kimberly K., Chair, Wisconsin Consulting Foresters, 
  Rosendale, Wisconsin...........................................   124
Waller, Donald M., Professor of Botany and Environmental Studies, 
  University of Wisconsin-Madison, Madison, Wisconsin............   126
Zemke, Elroy, President, and Jane Severt, Executive Director, 
  Wisconsin County Forests Association, Tomahawk, Wisconsin......   134
The Nature Conservancy, Madison, Wisconsin.......................   136



   HEARING TO REVIEW FOREST RESOURCE MANAGEMENT IN NORTHERN WISCONSIN

                              ----------                              


                         MONDAY, July 20, 2009

                  House of Representatives,
             Subcommittee on Department Operations,
                Oversight, Nutrition, and Forestry,
                                   Committee on Agriculture
                                                       Appleton, WI
    The Subcommittee met, pursuant to call, at 9:00 a.m., at 
the Radisson Paper Valley Hotel, 333 W. College Avenue, 
Appleton, Wisconsin, Hon. Joe Baca [Chairman of the 
Subcommittee] presiding.
    Members present: Representatives Baca and Kagen.
    Staff present: Jamie W. Mitchell, Lisa Shelton, Brent 
Blevins.

    OPENING STATEMENT OF HON. JOE BACA, A REPRESENTATIVE IN 
               CONGRESS FROM CALIFORNIA WISCONSIN

    Mr. Baca. I would like to call the meeting to order at this 
time. This is a hearing of the Subcommittee on Department of 
Operations, Oversight, Nutrition, and Forestry to review the 
forest resource management in northern Wisconsin. That's why it 
will come to order at this point. I'll begin with a little bit 
of an opening statement.
    I had an opportunity to talk to Matt a little bit, and 
besides being head of the cheese country and dairy country, 
forestry is very important in Wisconsin as well.
    I happen to hear you've got quite a few golf courses in the 
area as well. I wish I had a little bit more time. I would have 
loved to have gone to play. I know that Matt said that he 
played on Saturday.
    But I'm pleased to be here with my good friend and 
colleague, Dr. Steve Kagen, to examine forest resource 
management here in Wisconsin. I appreciate his leadership and 
vision, and I state his genuine concern for the district and 
involvement in the Agriculture Committee as well. He has been 
very instrumental in assuring that we had the hearing here, and 
his persistence and ``stick-to-ity'' is to make sure that I did 
not fade away and not come to Appleton, Wisconsin. And there 
was a time that I was tempted to say maybe we should cancel the 
hearing, but he came back and said, look, I care about this 
area, forestry is an interest that we have to look at, it 
impacts not only Wisconsin, but it impacts the nation, too. So 
I really want to thank Dr. Kagen for his invitation and being 
persistent and having this hearing here this morning as we 
begin to hear about the forest product industries and the 
forest communities here in the heart of the dairyland.
    This is not the first time I've been here. As I stated to 
some of you earlier, I've had numerous trips back in the 1970s 
to the 1980s that I used to come into Appleton and then play 
ball in Kimberly, so I used to stay right here. I played a lot 
of the fast pitch, because they had the International Softball 
World Tournaments that were held here in Kimberly, so I came 
back here to play ball during my younger age, which is only a 
few years ago. As we are maturing in age right now, we lose 
sight and count of how old we are. But I do remember coming out 
here and playing ball here in Wisconsin. And during that period 
of time, I had an opportunity to also play a little bit of 
golf, and I enjoy the golf that I played out here.
    By way of introduction, I'm from San Bernardino, 
California, just outside of the L.A. area, about 35 miles east 
of L.A., and we have the San Bernardino National Forest that 
borders my district. And, of course, it provides, like anything 
else, recreational opportunity, economic benefits, and it 
creates a high quality of life for residents. And this is what 
we care about not only in here, in this area, but in the Inland 
Empire. And as a Californian and as an American I know it's 
critical that we find concrete solutions to the many hazards 
facing the future of our forests. And this is why we're having 
this hearing: to look at--attempt to look at dynamic 
environments. Forests are part of ongoing policy discussions 
and challenges, issues like climate change. Similarly, Federal 
forest policies must be flexible enough to meet these 
challenges. And I state they must be flexible enough to meet 
these challenges. Ultimately, we, in Congress, must work to 
find solutions to the questions that plague American forest 
policies, and that means collaborating in a partnership and 
coming together. And I think when we can come together as a 
region, as a state, as a nation, we can begin to address a lot 
of our problems.
    Questions that we'd like to look at is how do we best limit 
the devastating impact of invasive pests on our forests? What 
balance do we strike between development and forestland 
preservation? How can we better equip our brave men and women 
who fight fires and maintain our forests to ensure that 
continued protection a success? How can we best work with 
business, labor, and communities to ensure the survival of 
timber-related industries during these times of economic 
difficulties? And that's one of the things we heard this 
morning before the hearing. How do we manage it? And how do we 
control the resources? How can we utilize America's forests and 
better protect the health of our water resources as well?
    I'm sure today's hearing will be very instructive and 
effective to evaluate our current forestry policies in this 
country, so I look forward to listening and learning from these 
excellent witnesses on their views of forests right here in 
Wisconsin.
    I want to thank you and your staff, Dr. Kagen, and everyone 
who has been here in putting this hearing together, and thank 
you for being persistent and having courage and caring about 
your district and about the nation.
    With that, I'd like to turn it over to Dr. Kagen for an 
opening statement.

  STATEMENT OF HON. STEVE KAGEN, A REPRESENTATIVE IN CONGRESS 
                         FROM WISCONSIN

    Mr. Kagen. Thank you, Chairman Baca, for holding this 
hearing and thank you to the staff for not having the customary 
clock up here with the five-minute limit. I understand that 
I've got five minutes; is that correct? Somebody is keeping 
time somewhere, that's how government works.
    We have talked about having a hearing on the issues that 
are facing the forestry for sometime, and I'm really, really 
glad to welcome you to Wisconsin. Again, it's appropriate that 
we are having this hearing here at the Paper Valley Hotel 
because the name itself reflects just how important the paper 
and forestry industry is to my district and to our continued 
economic success. While many parts of the country can boast of 
their forests, very few states have both the breadth and depth 
of forestry that we take for granted here in Wisconsin. 
Wisconsin has over 16 million acres of forestland which nearly 
encompasses half the state. It also has a diverse mix of both 
private and public forest that includes the Chequamegon-
Nicolet, National Forest, over ten million acres of private 
forestland held by 360,000 private landowners and state and 
county forests.
    This diversity means that the challenges and promises 
facing Wisconsin's forests are reflective of the issues 
surrounding forests nationwide. Even though all forests are not 
the same, sometimes management of these forests is one size 
fits all. I can tell you as a physician if you have asthma and 
allergies, every patient has a unique set of circumstances that 
they bring to the table, so is that also true with our national 
forests. Each one has unique problems and situations.
    Northeast Wisconsin has always been known for its extensive 
forests, which have played an important role in the housing and 
paper industries. And now, as our country moves towards greater 
energy independence, the forests of northeast Wisconsin have 
the potential to meet our nation's needs for renewable energy. 
I think it's very important that Congress continue to support 
the renewable energy activities of northeast Wisconsin.
    While this is a time of great promise for the forest 
industry, it's also a time of extreme struggle. We have seen 
paper industries struggle under the weight of subsidized 
foreign competition, illegal paper being dumped into our 
domestic markets. Timber sales have slowed along with the 
housing market and the credit crunch which has affected all of 
Wisconsin and the entire nation. But it's not only about our 
financial markets and the credit crunch. It's about having 
sales. It's about having contracts. No business person, no 
business owner in their right mind, would be looking to take 
out more debt at a time when they don't have the sales they 
need to even pay back the debt they might encounter themselves.
    I look forward to listening to the witnesses assembled here 
today as they speak about how we manage our forests here in 
Wisconsin. I look forward to learning what lessons we can share 
with our colleagues on the Agriculture Committee and in 
Congress more generally.
    As we look to craft policies that help our forests meet 
their full potential today as well as the future generations, I 
also look forward to discussing what challenges are facing 
Wisconsin forestry. While Congress may not be able to solve all 
these challenges, and perhaps Congress shouldn't be looked to 
for all the solutions, it is crucial that we are cognizant of 
the realities that face the forestry industry.
    So thank you again, Chairman Baca, for convening this 
Congressional hearing here in northeast Wisconsin. I look 
forward to the testimony we're about to hear.
    Mr. Baca. Again, thank you very much for bringing 
Washington, D.C., to Appleton and setting history right here in 
Appleton and having the first hearing here.
    With that, I'd like to begin with the first panel that we 
have. I'm going to have Dr. Kagen introduce each of the 
panelists. The panelists will have five minutes. There's a 
light in front of you that will go on. We turned it off for you 
just to make sure we allowed you the additional time. But 
there's a light in front of you and it will go from the green 
to the yellow and then the red which means that you'll be able 
to end your testimony. But your testimony will be taken and it 
will be recorded, and for anybody else that didn't have an 
opportunity to speak this morning, you'll have five legislative 
days to submit your testimony, and it will be part of the 
record.
    With that, Dr. Kagen, I'd like you to start by introducing 
each of the panelists, and then we will start with the first 
one and then you'll have five minutes.
    Mr. Kagen. Let me begin by thanking you for coming here to 
the Paper Valley Hotel to present testimony to the United 
States Congress. And first up we have Ms. Jeanne Higgins, 
Forest Supervisor of Chequamegon-Nicolet National Forest, U.S. 
Forest Service, U.S. Department of Agriculture, Park Falls, 
Wisconsin.
    Next up will be Matt Frank, who we have come to know very 
well as Secretary of Wisconsin's Department of Natural 
Resources. And I would say that he's from Madison, but I get to 
see him everywhere in the state, so I'm not sure where he's 
from.
    So, Ms. Higgins, if you'd begin.

  STATEMENT OF JEANNE HIGGINS, FOREST SUPERVISOR, CHEQUAMEGON-
 NICOLET NATIONAL FOREST, U.S. FOREST SERVICE, EASTERN REGION, 
     U.S. DEPARTMENT OF AGRICULTURE, PARK FALLS, WISCONSIN

    Ms. Higgins. Mr. Chairman, Dr. Kagen, thank you very much 
for taking the time to come to northern Wisconsin and talk 
about forest resource management. As evidenced by the 
attendance here today, issues facing our forests and forest 
resource management are important to many of us. Your presence 
and interest is greatly appreciated.
    With that, it's an honor for me to speak before you today. 
I am Jeanne Higgins, Forest Supervisor for the Chequamegon-
Nicolet National Forest, Wisconsin's only national forest. We 
more affectionately refer to it as the Cheq-Nic or the Che-Ni 
or Chequamegon-Nicolet will be a mouthful. But that forest is 
comprised of over 1.5 million acres across northern Wisconsin 
in 11 counties and 65 townships. These forests are composed of 
land that was once logged over, burned over, and abandoned. And 
in the 1930's the Forest Service acquired the land. Since then, 
the Chequamegon-Nicolet and numerous partners have worked hard 
to create the landscape we see today.
    However, we must acknowledge we had challenges in managing 
forests in these landscapes. These challenges are not unique to 
Wisconsin. However, I believe Wisconsin is uniquely positioned 
to provide leadership to successfully tackle these challenges. 
So what is the role of the Forest Service and, specifically, 
the Chequamegon-Nicolet National Forest?
    Those of us who are responsible for managing this public 
trust must ensure we maintain a sustainable forest. In doing 
so, the Land and Resource Management Plan is a key instrument 
in our success to meet this obligation. We must also look and 
work across the landscape to ensure forest sustainability. Our 
relationship with our partners and other stakeholders is 
critical to our collective success in addressing the 
challenges. We must also have the appropriate tools to respond 
to these challenges and other dynamic situations that affect 
the sustainability of our forests.
    Management of the Chequamegon-Nicolet National Forest is 
guided by the 2004 Land and Resource Management Plan, more 
commonly known as ``the forest plan.'' The forest plan is set 
up to ensure sustainable forests to provide what we as society 
desire. This includes the products we value, the wildlife that 
live here, and all of the other amenities and resources we use 
in our forests. It provides a balance of the demands that we 
place on our forests. The primary goal of the forest plan is to 
provide guidance to land managers to maintain a sustainable 
forest and developed through strong public involvement.
    When the plan was revised there was strong interest and 
active engagement process for many stakeholders, many of whom 
are here today. The plan represents what people value most 
about their forests, such as clean air, clean water, wildlife 
habitat, wood products, and outdoor recreation. Sustainable 
forest management has renewed and recovered healthy ecosystems 
and provided significant contributions to the nation's well-
being. The Chequamegon-Nicolet as we know it today is the 
result of over 80 years of intensive restoration efforts. So 
managing these diverse landscapes cannot be done alone or only 
within the confines of the national forest boundary. The 
assistance of our partners in working collaboratively with 
other landowners is critical. Collaborative relationships are 
essential to sustainable forests. It is imperative that 
dialogue continue to occur to discuss issues that we face 
managing these forests. No one entity can work alone to resolve 
the challenges we face, such as nonnative invasive species, 
climate change, and parcelization of private forestland.
    Forests are dynamic, and appropriate tools are needed to be 
able to respond quickly to situations and events that could 
impact the long-term sustainability of forest resources. As 
land managers of this national forestland, we use a wide range 
of tools that are available to us to make management decisions. 
These tools are critical for assisting us to manage these 
public lands in a balanced and sustainable way. For example, 
the Healthy Forest Restoration Act being utilized to rapidly 
respond after the quad-county tornado in 2007. The tools we 
have available also assist us to work with many partners to 
accomplish work that benefits the forest as well as local 
communities. The tools such as community wild park protection 
plans and stewardship contracting are important to our success.
    These are just some of the challenges we face, but as I 
mentioned earlier, we are in a position to provide leadership. 
We have dedicated staff on the Chequamegon-Nicolet to address 
these challenges. These folks are very committed to our work of 
managing the national forest.
    Thank you for the opportunity to speak with you. I look 
forward to questions you may have.
    [The prepared statement of Ms. Higgins follows:]

     Submitted Statement of Ms. Jeanne Higgins, Forest Supervisor, 
   Chequamegon-Nicolet National Forest, Eastern Region, U.S. Forest 
     Service, U.S. Department of Agriculture, Park Falls, Wisconsin
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Baca. Thank you very much for sticking with the time tables.Mr. 
Kagen. That was very good. Mr. Frank?

   STATEMENT OF MATTHEW J. FRANK, SECRETARY, WISCONSIN DEPARTMENT OF 
                 NATURAL RESOURCES, MADISON, WISCONSIN

    Mr. Frank. Mr. Chairman, Congressman Kagen, thank you so much for 
holding this hearing in Appleton and in Wisconsin today. We are just 
honored to be here with you. I appreciate, in particular, Congressman 
Kagen, your focusing Congressional attention on this very important 
issue. Thank you, Mr. Chairman, for coming back to Wisconsin. 
Appreciate it.
    It's appropriate we are here in Appleton. Appleton has been a 
National Arbor Day Foundation winner of Tree City USA for 25 years, 
including 17 growth awards. Has one of the most progressive urban 
forestry programs in Wisconsin. And I think it's appropriate that we 
are here not only in your home area, Congressman Kagen, but in this 
city that is really committed to urban forestry.
    I really appreciate this opportunity to appear before you to 
discuss the significant value--ecological, economic, and social--that 
Wisconsin's forests provide to the people of Wisconsin and the nation. 
These values stem from our abundant and sustainably-managed forest 
resource; leadership in providing certified wood on public and private 
lands; successful programs that promote the sustainable management of 
our privately-owned forests; a large pulp and paper industry, number 
one in the country, and diverse solid wood businesses; strong tourism 
and outdoor recreation base that includes the connection between our 
forests and high quality water resources, including more than 15,000 
lakes; abundant habitat for diverse wildlife; leadership in research 
and innovation in renewable energy; and active protection of the forest 
resource from fire and invasive species.
    Our forests provide these values through the hard work of many 
partners. The state works closely with our governmental partners. 
Federal, we have an excellent relationship with Jeanne Higgins and the 
U.S. Forest Service here. Our other state partners, county partners, 
county foresters, municipal levels of government, as well as myriad 
other partners including landowner groups, environmental and 
conservation organizations, universities, businesses, our tribes, and 
countless others. We cannot achieve success working independently, but 
there is much we can do and accomplish working together. To that end, 
the Federal Government is a key partner in a number of ways, which I 
hope to be able to discuss with you more this morning.
    Wisconsin's 16 million acres of forestland covering nearly half of 
Wisconsin's landscape significantly enhance the quality of life in our 
state. Wisconsin's forested acreage has been steadily increasing for 
the better part of a century, and provides an array of benefits that 
accrue to us all, even if we often are unaware of their origin. Our 
forests are often overlooked as part of our strategic infrastructure. 
In fact, forests are a strategic national resource that we must work 
together to protect and sustainably manage. Our forests work day in and 
day out to produce an array of benefits, many of which accrue to the 
public at large, not just the forest owner. These benefits include 
clean air, clean water, wildlife habitat, flood control, carbon 
sequestration, wood products, jobs, renewable energy, displacement of 
fossil fuels, settings for recreation and tourism, and scenic beauty. 
Trees and forest also play a role in conserving energy, reducing 
floods, and enhancing the quality of life in our cities, villages, and 
towns.
    Our pulp and paper and solid wood industry is a key industry in 
Wisconsin and in the country contributing roughly $20 billion in value 
to our economy. Wisconsin leads the nation in the production of paper 
and in the value of forest product shipments. Over 1,300 wood product 
companies employ over 68,000 people with an annual payroll of over 
three billion representing 13 percent of all manufacturing employment 
in the state. And I might add that Wisconsin recently went into first 
place in the number of manufacturing jobs per capita of any state in 
the country. We are now at about 19 or 20 percent of our economy. We 
remain second only to California in total employee wages from the 
forest products industry. In addition, we have $13 million tourist 
industry with forest-based recreation, which also adds another $5 
billion in economic output to the state.
    There are some critical issues that I hope we have a little more 
time to discuss this morning. We need to invest in our nation's 
forests. I think the Federal Government does have an important role to 
play there. We have some thoughts about how the Federal Government can 
help us control invasive species. I think one of the areas that we 
really need to focus on is looking at the interstate movement of 
firewood, and we can talk more about that. Certainly investing in our 
forests through programs like the Forest Legacy Program or the Forest 
Stewardship Program, supporting our urban and community forestry 
programs, also depend, in part, on Federal funding. Focusing on the 
area of forest fire protection, making sure that the Forest Service has 
adequate funding to fight the fires so they don't have to take money 
out of other parts of their budget. I applaud Congress for taking some 
steps in that direction to address that issue in the current budget. 
Climate change and energy are also very, very important issues. We have 
an enormous opportunity here to be a leader. Governor Doyle has made 
Wisconsin--has positioned Wisconsin as a national leader in the 
development of clean and renewable energy, and bioenergy is an 
important part of that, and our forests are a key asset in terms of 
developing that.
    It looks like I'm over time. And I hope that we have a little bit 
more time to talk about some very big and complex issues. But, once 
again, thank you so much for coming here. We look forward to working 
with the Committee and with Congress.
    [The prepared statement of Mr. Frank follows:]

   Submitted Statement of Mr. Matthew J. Frank, Secretary, Wisconsin 
          Department of Natural Resources, Madison, Wisconsin
    Mr. Chairman and Committee Members:
    Good morning and welcome to Wisconsin. I appreciate this 
opportunity to appear before you to discuss the significant value -- 
ecological, economic and social -- Wisconsin's forests provide to the 
people of Wisconsin and the nation. These values stem from our:

    <bullet>  abundant and sustainably managed forest resource;

    <bullet>  leadership in providing certified wood on public and 
private lands;

    <bullet>  successful programs that promote the sustainable 
management of our privately owned forests;

    <bullet>  large pulp and paper industry and diverse solid wood 
businesses;

    <bullet>  strong tourism and outdoor recreation base that includes 
the connection between our forests and high quality water resources, 
including more than 15,000 lakes;

    <bullet>  abundant habitat for diverse wildlife;

    <bullet>  leadership in research and innovation in renewable 
energy;

    <bullet>  active protection of the forest resource from fire and 
invasive species.

    Our forests provide these values through the hard work of many 
partners. The State works closely with our government partners - 
Federal, state, county and municipal - as well as myriad other partners 
including landowner groups, environmental and conservation 
organizations, universities, businesses, tribes, and countless others. 
We can not achieve success working independently, but there is much we 
can and do accomplish working together. To that end, the Federal 
Government is a key partner in a number of ways, which I will outline.
Wisconsin's Abundant Forests
    Wisconsin's 16 million acres of forest land, covering nearly half 
of Wisconsin's landscape, significantly enhance the quality of life in 
our state. Wisconsin's forested acreage has been steadily increasing 
for the better part of a century and provides an array of benefits that 
accrue to us all, even if often we are unaware of their origin. Our 
forests are often an overlooked part of Wisconsin's strategic 
infrastructure; in fact, forests are a strategic national resource that 
we must work to protect and sustainably manage. Our forests work day in 
and day out to produce an array of benefits, many of which accrue to 
the public at large, not just the forest owner.
    The benefits we derive from forests include clean air, clean water, 
wildlife habitat, flood control, carbon sequestration, wood products, 
jobs, renewable energy, displacement of fossil fuels, settings for 
recreation and tourism, and scenic beauty. Trees and forest also play a 
role in conserving energy, reducing floods, and enhancing the quality 
of life in our cities, villages and towns.
    Wisconsin's traditional bio-economy -- pulp & paper and solid wood 
-- collectively contribute $20.5 billion in value to our economy. 
Wisconsin leads the nation in the production of paper and in the value 
of forest product shipments. Over 1,300 wood products companies employ 
over 68,000 people with an annual payroll of $3.1 billion representing 
13% of all manufacturing employment in the state. We remain second only 
to California in total employee wages from the forest products 
industry, which in Wisconsin is the number one employer in 23 counties 
and either second or third in an additional 15 counties. Wisconsin has 
a $13 billion tourism industry with forest-based recreation estimated 
to add an additional $5.5 billion in economic output in Wisconsin.
Relationship with USDA Forest Service (USFS)
    Wisconsin DNR has a positive working relationship with the USFS, 
working in collaboration across all three branches of the agency.
    With over 1.5 million acres, the Chequamegon-Nicolet National 
Forest (CNNF) covers nearly 10% of Wisconsin's forest land and 30% of 
the forested public land. Intermingled with our State (1.1 million 
acres) and County forests (2.4 million acres), the CNNF shares the 
joint responsibility for providing the full array of benefits I 
outlined above. These include raw materials that support jobs and local 
communities, forest-based recreational opportunities, wildlife habitat 
and so on. We value our very positive working relationship with CNNF 
Forest Supervisor Jeanne Higgins and her staff. She recognizes that the 
CNNF sits within a broader landscape of public and private forest lands 
and many communities. We work together to collectively address both 
challenges and opportunities, some of which I will outline here this 
morning.
    WDNR also has a long-standing collaborative relationship with the 
USFS research, particularly initiatives supported through the USFS 
Northern Research Station and the Forest Products Laboratory, which we 
are proud to host here in our state. Long-term field research such as 
that done on the Argonne Experimental Forest, studies on issues such as 
old growth, and the Forest Inventory & Analysis (FIA) program are among 
those research programs important to us here in Wisconsin. The Lab has 
for decades been a major contributor in advancing the efficient use of 
our renewable forest resources and remains a critical player as we move 
forward as a nation to address opportunities such as those associated 
with renewable, homegrown bioenergy.
    The branch of the USFS that we interact with the most is State & 
Private Forestry (S&PF). This is not surprising given that private 
forests comprise more than two-thirds of our forest land and are owned 
by more than 300,000 individuals. The USFS S&PF program provides 
Wisconsin approximately $2 million annually to help support our efforts 
to provide an array of public benefits from our private and community 
forests. Funding for private forest stewardship, urban & community 
forestry, Forest Legacy, forest health, and several cooperative fire 
initiatives are an important component of our program to protect and 
enhance the public values that we derive from our forests. Furthermore, 
S&PF provides a conduit for effective cross-state collaboration on 
forestry issues, enhancing the effectiveness of efforts to maximize the 
delivery of goods and services from forests across the country.
    S&PF programs have supported our work to address destructive 
invasive species, address how to effective engage the next generation 
of family forest owners in whose hands lies the future of our private 
forests and the benefits they provide us, design and implement efforts 
to mitigate the hazards facing communities at high risk from wildfire, 
assess the extent and health of the trees and forests in our 
communities, and conserve large blocks of private forest land at risk 
of being subdivided and fragmented. To elaborate briefly on just one of 
these, through our partnership with the USFS, we have used Federal 
Forest Legacy funds to help acquire conservation easements on more that 
100,000 acres of working forest lands, including the Wild Rivers Legacy 
Forest in Northeast Wisconsin. The final phase of this project is in 
the FY'10 budget as proposed by President Obama and passed by the 
House. These easements protect environmentally important forestlands 
threatened by conversion to non-forest uses while also providing a wide 
array of public benefits, including exceptional water resources and 
valuable settings for public recreation.
    The Federal investment in S&PF is has been declining, just as 
recognition of the value of our forests as a strategic national asset 
has been increasing. For example, the allocation of forest stewardship 
funds, which support efforts to keep our most vulnerable forests in 
forest and managed well for the long-term, is scheduled to be reduced 
by 45% for Wisconsin. This seems at odds with the direction I believe 
we need to be headed if we are to realize the full potential of our 
forests both ecologically and economically.
    Before shifting gears, I want to close by reiterating our 
opposition to the proposed merger of USFS Region 9 and the Northeastern 
Area, which was in a recent Federal Register notice. We strongly 
support increased collaboration among all three branches of the USFS in 
the East. However, the proposed merger is not an effective way to 
accomplish that and it fails to recognize the need for the agency to 
increase its focus on the compelling Federal interest in the protection 
and sustainable management of the nation's forests, not primarily the 
National Forests. The air and water purified by our forests, and the 
carbon they sequester, does not vary by ownership; it varies by how the 
land is treated. We ask that the USFS be a committed partner to work 
across our forests and in our communities to maximize how our forests 
best serve us all.
Wisconsin a Leader in Providing Environmentally Sustainable Wood
    Over the last decade, third-party forest certification has taken 
root as a credible public assurance that forests are well-managed. 
During this time Governor Doyle recognized the important role of 
Wisconsin forests in his original 2003 ``Grow Wisconsin'' plan. He 
directed the Department of Natural Resources and the Council on 
Forestry to explore opportunities to certify land in DNR administered 
programs to build the supply of verified, sustainably produced source 
material. The Department moved quickly to complete forest certification 
and, as a result, we now have nearly six million acres of State Forest, 
County Forest, other state lands and private land enrolled in the 
Managed Forest Law program that are third party certified via the 
Forest Stewardship Council (FSC), Sustainable Forestry Initiative (SFI) 
and/or the American Tree Farm system. A growing number of manufacturers 
are marketing products made from certified wood and paper because the 
associated trust is very good for business. The concentration of 
certified forests in the Lakes States has especially helped Wisconsin's 
paper makers weather the recession and poises them for a more rapid 
recovery.
    A continuing key to this success is that nearly half of Wisconsin 
forestlands are recognized by leading international and North American 
forest certification programs. That compares to only about 12% of 
forests nationwide, making Wisconsin and our neighboring Upper Great 
Lakes states a distinct forest certification ``hub''. Last year 
Wisconsin completed FSC certification of more than 42,000 small private 
estates covering over 2,000,000 acres, a record no one else comes close 
to anywhere in the world. This was accomplished through our Managed 
Forest Law program, giving Wisconsin the largest group of certified 
family-forest owners under both Forest Stewardship Council and the 
American Tree Farm System. But we are not satisfied with these 
accomplishments.
    So what's missing from the certification picture? Quite 
prominently, our National Forests. The CNNF has 1.5 million acres here 
in northern Wisconsin ready and willing to engage in forest 
certification. I encourage Congress and the Administration to provide 
leadership in bringing certification to Federal lands and to expand 
forest certification for small family forests. Outside of the Managed 
Forest Law program, Wisconsin has another 8 million acres of small land 
ownerships that need USDA technical forestry assistance and land 
management incentives that could enable their land to be certified. 
Certification is also one of several tools that we can use to ensure 
future bio-fuel and carbon sequestration programs are implemented in a 
manner that balances environmental, economic and social needs.
Maintaining our Industrial Base in a Global Economy
    Although we continue to lead the nation in paper production, the 
paper industry, along with others aspects of our forest produces 
industry, is under stress due to foreign competition, high energy costs 
and high fiber costs that have reduced companies' competitive position 
in the global marketplace. Although jobs have declined in this sector 
over recent years due to the global economy, we still have 
approximately 35,000 jobs in the pulp, paper and printing sectors 
alone. The pulp and paper industry is restructuring globally and must 
add products and streamline operations to regain a competitive 
advantage. We must also work together to maintain a vibrant cadre of 
professional loggers who play a key role in achieving sustainability on 
the ground and getting product to market.
    The future health of the industry directly affects Wisconsin's 
economy; however, it also affects our ability to sustainably maintain 
forests. Our robust industry has provided an incentive to keep forest 
land forested and managed sustainability, and encouraged landowners to 
undertake activities to ensure the long-term capacity of their forests 
to provide an array of benefits, including feedstock for industry but 
also such things as recreation opportunities, wildlife habitat, and 
clean air and water that benefit the public as a whole. As a result, 
the loss of industry is not only a detriment to Wisconsin's economy, 
but also to the health of our environment and quality of life in our 
state.
Climate Change
    In 2007 Governor Doyle signed Executive Order 191 creating the 
Global Warming Task Force. One of the missions given to the task force 
was to advise the Governor on ongoing opportunities to address global 
warming locally while utilizing an appropriate mix of fuels and 
technologies in Wisconsin's energy and transportation portfolios. In 
addition to sequestering carbon, Wisconsin's forests can provide a 
feedstock for generating renewable energy. By displacing fossil fuels, 
our forests reduce our collective carbon footprint.
    Governor Doyle has also been a leader in the Midwest Governors 
Association process to develop a strategy for addressing climate 
change. Both the Wisconsin and MGA processes have resulted in 
recommendations that should influence how we proceed on climate change 
legislation nationally. To that end, Wisconsin has been active in 
advocating that Federal climate legislation account for the positive 
role forests can play.
    Climate Change will have an important effect on the future of the 
1.7 billion tons of carbon stored in Wisconsin's Forests. Our forest 
ecosystems will likely be changed by a warming climate and but also 
have a role to play in mitigating the extent to which that warming does 
occur. I appreciate the efforts of the House to pass H.R. 2454 with 
provisions that for the most part recognize the important contribution 
of forests to addressing climate change. First, the bill provides for 
the use of forest biomass as a renewable energy resource. Substituting 
this fuel for traditional sources in energy generation provides an 
avenue for energy producers and manufacturers to reduce their 
greenhouse gas emissions. Second, this bill includes provisions for 
forest offsets. Under these offsets, tree planting and forest 
conservation can act as a low cost means for Wisconsin's greenhouse gas 
emitters to meet their reduction obligations while implementing more 
efficient systems.
    This same bill also provides assistance to states in working to 
protect sensitive forest ecosystems that will be put at risk by a 
changing climate. There was a positive change made in the version that 
passed the House to ensure some adaptation funding is available to 
address forests, however, given the critical role that forests play 
ecologically and economically, the percentage directed to forests 
remains low. Should the Senate decide to increase adaptation funding 
for forests, I encourage your support for that when it goes to 
conference. For our part, Wisconsin has created the Wisconsin 
Initiative on Climate Change Impacts (WICCI), of which the DNR and 
University of Wisconsin are partners. WICCI is already working to model 
the impacts of a changing climate of our forests and recommend 
adaptation strategies to reduce the detrimental impacts on our most 
sensitive forest species. Furthermore, this same group is working with 
the USGS to compete for the creation of a Federally funded Midwest Area 
Science Hub in the State that would study the impacts of climate 
changes on natural systems in Minnesota, Michigan and Wisconsin.
A Leader in the Green Economy
    Since coming into office, Governor Doyle has led efforts to make 
Wisconsin a leader in the development of clean and renewable energy, 
advancing energy efficiency and moving Wisconsin toward energy 
independence. He wants our energy to come from the Midwest, not the 
Middle East. Governor Doyle has set a goal of generating 25% of 
electricity and transportation fuels from renewable sources by 2025, 
capturing 10% of the emerging bio-industry and renewable energy market 
by 2030, and becoming a national leader in groundbreaking energy 
research. Governor Doyle has identified our forests and farms as one 
key component of Wisconsin's energy future. Last year Governor Doyle 
committed $50 million to build the Great Lakes Bioenergy Research 
Center. The synergy that is being created between the research center, 
the University of Wisconsin and the USDA Forest Products Lab positions 
Wisconsin to be the national leader in developing innovative solutions 
to meet our energy needs, from increasing biomass yields to working 
renewable energy solutions into the state, national, and global 
economies. It is important that we continue to see Federal investment 
in this area if we are to achieve the goals outlined by both President 
Obama and Governor Doyle.
Pulp Mills as Biorefineries
    Wisconsin's large pulp and paper industry positions the state to 
take advantage of the existing infrastructure to add production of 
renewable energy at a large scale. The pulp and paper industry uniquely 
enables the state to be a significant producer of not only pulp and 
paper, but bioenergy, bio-chemicals and bio-feedstocks as well. As 
integrated ``biorefineries'' the mills could extract energy and other 
bi-products from wood while also making their traditional products. 
This has the potential to significantly increase their revenue stream 
from the same wood they currently bring into the mill. As a result, 
adding renewable energy to the products produced at our existing pulp 
mills would help keep the industry competitive globally while also 
helping Wisconsin achieve Governor Doyle's targets for renewable energy 
production.
    In addition to producing energy from wood used to produce value-
added products, opportunities exist to utilize biomass from the forest 
that is not used by existing industry. The department estimates that 
our forests contain over 600 million dry tons of biomass in our 
forests. Our forests already provide nearly 600,000 tons of wood for 
energy production today, and another 1.2 million tons of currently 
unutilized wood are available to use in energy production. This is all 
in addition to wood that might be used to produce energy prior to being 
pulped for the production of other products.
    In order to ensure that our forests can sustain the production of 
woody biomass for energy, the Wisconsin Council on Forestry initiated a 
public process to develop Biomass Harvest Guidelines designed to assess 
the how material can be removed from the forest in a manner that will 
maintain the ability of the forest to provide the array of other public 
benefits long into the future. We were one of the first states in the 
nation to put such guidelines in place to ensure the array of values 
from our forests can be sustained.
Strategic Choices
    Policies that promote bioenergy should be crafted in a manner that 
allows existing industry to compete on a level playing field. Using 
wood for energy clearly helps us meet identified targets for renewable 
energy, thereby reducing our carbon footprint and increasing our use of 
``home grown'' energy. On the other hand, to the extent that using wood 
for energy displaces using that wood for traditional products (e.g., 
pulp & paper, solid wood products) there is a significant drop-off in 
economic value. Our forests can provide both traditional forest 
products and increased energy; we simply must be thoughtful to chart a 
course that will enhance both existing and new industries.
    It is also important not to lose sight of all the different 
renewable energy products that can be produced from wood, such as 
transportation fuels, syngas, electricity and heat. We should strive to 
use wood in a manner that maximizes the energy return to the U.S. from 
investment in the forest.
    As an important step, the RES and RFS definitions must acknowledge 
wood as an important source of renewable energy. That energy must be 
extracted in a manner that is sustainable long-term. We believe 
sustainability can best be determined at a state level, as evidenced by 
our development of Biomass Harvest Guidelines. The RES definition in 
H.R. 2454 as passed by the House acknowledges forests to a greater 
degree than previous versions, however, the final version should more 
clearly recognize the contribution that can occur on Federal lands and 
have provisions for states to outline clear sustainability guidelines.
Forest Fire Protection
    An expanding Wildland Urban Interface (WUI) in Wisconsin and 
elsewhere, continued droughts, warming climate, and an increasing 
forest health crisis have created a difficult situation and stressed 
forest fire management capabilities to protect communities and the 
forest resource. In Wisconsin, as in the eastern United States 
generally, the states have the majority of forest fire protection 
responsibilities, equipment and personnel. We collaborate closely with 
local fire departments and our Federal partners both in-state and out-
of-state when called upon to provide aid to other states. In these 
difficult budget times we will continue to work with our Federal 
partners to see what we might do to further streamline the protection 
of people, property and natural resources in Wisconsin from forest 
fires.
    At the Federal level, there is a continued need to advocate for a 
solution to the ever increasing impact of emergency fire suppression 
costs on the U.S. Forest Service (USFS) and the Department of the 
Interior's (DOI) constrained budgets. Fire suppression costs for the 
agencies have exceeded $1 billion every year since 2000. In 2009, the 
Forest Service will spend over 50% of its budget on wildland fire 
suppression.
    This increase has placed sustainable forest management efforts at 
risk on both public and private lands. Unless this diversion of funding 
is successfully addressed, state forestry agencies will not be able to 
successfully address national priorities and objectives. Extraordinary 
emergency fires should be treated the same way as other disasters and 
should not come at the expense of all other USFS and DOI priorities and 
programs. To that end, I appreciate the overwhelming bipartisan support 
shown in the House for the Federal Land Assistance, Management and 
Enhancement (FLAME) Act (H.R. 1404). The bill is currently being 
considered in the Senate and we strongly advocate its passage as 
introduced in S. 561. I hope you will join me in urging action by the 
Senate and quick turnaround in conference so that President Obama can 
sign the FLAME Act into law this year.
Invasive Species
    Invasive species pose a major challenge to our forests. The Emerald 
Ash Borer (EAB), for example, has been found in two locations here in 
Wisconsin since last August. The DNR, the Wisconsin Department of 
Agriculture, Trade and Consumer Protection (DATCP) and the University 
of Wisconsin (UW) and UW Extension are working closely with Federal 
agencies -- USDA Forest Service and Animal Plant Health Inspection 
Service (APHIS) to implement a cooperative EAB program. This program is 
focused on delimiting existing infestations, detecting new finds, 
testing management options and conducting outreach and education. Using 
EAB as an example of extraordinary invasive species impacts to our 
forests, the entire ash resource equating to more than 760,000,000 ash 
trees are at risk, as are 20% of the trees in our communities. Federal 
grant funds are a key source of support for detection and management of 
this pest. Using a competitive grant from USFS S&PF, we will be 
conducting workshops for municipalities and forest landowners in the 
fall of 2009, helping these communities cope with this destructive 
pest. DNR is also supporting two research projects using funds from 
this same competitive process in an effort to learn more about EAB and 
how we might most effectively detect and manage it.
    On DNR-managed properties, we continue to enforce our firewood rule 
that restricts the distance that firewood can originate from to 50 
miles from the property. While this is important, we believe action is 
also needed at a Federal level. We strongly advocate development of a 
national program to regulate the movement of firewood, which has been 
found to be a common vector for a number of destructive pests. We would 
like to see this move forward quickly, working with state forest health 
program leaders, state plant regulatory directors, environmental, 
forestry and forest industry groups, the firewood industry and other 
affected parties. The Federal Government plays an important role in 
managing these invasives, which know no political boundaries, to 
coordinate and lead in the detection, monitoring and long term 
management of priority invasives. Likewise, investments in research are 
critical to develop new tools to respond to invasive species.
Looking Ahead
    Our forests, like those throughout this nation, are a strategic 
asset that provide a large array of benefits both today and, if managed 
well, long into the future. In order to do so, we need to be thoughtful 
in how we approach use of our forests to best maximize the positive 
outcomes - ecologically, economically, and socially. We face many 
critical challenges that we will need to work cooperatively with out 
partners, including our Federal partners, to address, locally, 
regionally and nationally.
    The DNR looks forward to continuing to work with you to help 
accomplish this. I appreciate this opportunity to discuss these issues 
with you and would be glad to take any questions you might have.
   Submitted Material of Mr. Matthew J. Frank, Secretary, Wisconsin 
          Department of Natural Resources, Madison, Wisconsin
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Baca. Thank you very much, Matt.And don't be intimidated by the 
lights. We are intimidated ourselves when we are back in D.C. When time 
expires and all of a sudden we either got a one-minute or two-minute or 
five-minute question and answer or presentation. It seems like the 
light comes on all of a sudden, you are trying to rush through to get 
everything. But hopefully, Matt, I'm sure that we'll be able to hear 
some of the other concerns or areas that are very important.
    With that, then, we will begin with some questions and answers 
hopefully from both myself and Dr. Kagen to both you and your 
assistants that are here, too. We will have five minutes ourselves. And 
I'll start with Ms. Higgins.
    I'm a big baseball fan, as you heard before, and especially 
interested in what I have in terms of the Forest Service and the Forest 
Product Laboratory in Madison, what it's doing to solve the crisis of 
broken bats. Can you provide me with an update in terms of what's going 
on there?
    Ms. Higgins. I'd be happy to. Our Forest Products Lab in Madison 
took on the challenge of trying to understand why bats were breaking as 
frequently as they have. We have----
    Mr. Baca. They're not cork bats, right?
    Ms. Higgins. And I think what the Forest Products Lab found is that 
maple bats have been utilized a little bit more frequently in recent 
years than ash bats, and maple bats have had a tendency to break and 
splinter. So they did their magic, went into their laboratory and 
figured out what exactly was causing the bats to break and came out 
with actually nine points for Major League Baseball to consider in 
terms of manufacturing and utilizing bats. And so those have been 
forwarded to Major League Baseball, and I understand they have been 
adopted in terms of how to manufacture bats so that they don't break. 
So I'm going to be watching to see how many of those bats break as I 
watch.
    Mr. Baca. Maybe they should come from the forests right out here.
    Ms. Higgins. We have a lot of maple here in northern Wisconsin.
    Mr. Baca. Thank you. Can you tell me what you are doing in your 
forest resource management practice to anticipate and incorporate the 
effects of climate change?
    Ms. Higgins. Climate change is something we should all be concerned 
about. We are currently undertaking vulnerability and mitigation 
assessment to understand how best to adapt our forests to adapt to 
climate change, and we are working with our partners across the state 
to understand how we can respond.
    Mr. Baca. You mentioned in your testimony the tools for management. 
Can you elaborate a little bit more about managing the forests, about 
the kind of tools?
    Ms. Higgins. Well, the Healthy Forest Restoration Act has been a 
very important tool for us to be able to respond quickly to events that 
occur in the forest such as the quad-county tornado which hit four 
counties in northern Wisconsin in 2007, and it impacted 8,000 acres of 
national forest system land and essentially leveled it. We were able to 
respond quickly to do the environmental analysis, much quicker than our 
normal processes, which allowed us to get in and salvage timber and 
begin to restore that forest after that tornado within a matter of 
months. So we were very appreciative of that tool to allow us to be 
able to respond as quickly as we were.
    Mr. Baca. Thank you. You mentioned the use of emergency rate 
redeterminations we've added to the farm bill for certain timber 
contracts. With the country in such difficult economic times, is there 
any additional authority you could use to help local timber producers?
    Ms. Higgins. Well, certainly the tools that we have, which include 
contract term extensions and rate redeterminations, I think have been a 
tremendous help. I would encourage you to ask that question of the 
second panel members as to whether or not there's any additional help 
that they could use. We have heard that the tools that we have been 
able to use have been very helpful in these times.
    Mr. Baca. Thank you. In California, water is always a major concern 
for a lot of us, especially for those of us in southern California 
versus the northern portion. You mentioned water resources in your 
testimony, but I wondered if you could expand on your comments by 
explaining how Wisconsin watershed fits into the larger regional water 
resource picture?
    Ms. Higgins. Well, normally, and the Chequamegon-Nicolet is no 
different, we are at the headwaters of many of our nation's waters, and 
so it's an important role for the national forests, and specifically 
the Chequamegon-Nicolet, to provide clean water. Our challenge is not 
necessarily so much about water quantity but it is about water quality. 
Actually, certainly water quantity has been a bigger concern here in 
northern Wisconsin with the drought that we've had over the last 
several years, but our focus on the national forest is trying to reduce 
sedimentation from roads, trying to ensure that we restore streams and 
rivers that at one point in time were actually used as a transportation 
source to haul logs--to transport logs from the headwaters down to the 
mills, and in that process we modified habitat in our streams. So our 
work has been focused on restoring streams and reducing sedimentation.
    Mr. Baca. Thank you. I know my time has expired, but I want to ask 
Matt, you mentioned firewood. Could you elaborate a little bit more on 
the interstate transport of firewood?
    Mr. Frank. Yes. Well, invasives, I think, is one of the major 
challenges to long-term forest health in not only Wisconsin but across 
the country. We have an excellent program within Wisconsin to deal with 
this challenge. DNR works very closely with the Department of 
Agriculture, Trade & Consumer Protection. We have a lot of good local 
partnerships. We work with the Federal and county forest folks who do 
this work. I think where we could use more help and attention from the 
Federal Government in looking at the interstate movement of firewood. 
That is one of the vectors that has been identified, scientifically, as 
how invasives will move across state lines.
    And up until the last year, we did not have emerald ash borer in 
this state. We have not been able to prove exactly how it got here, but 
the strong suspicion it is from the interstate movement of firewood. 
And the states--we like to do as much as we can on our own, we don't 
like to go to the Federal Government to ask for help on all things, we 
know there's a responsibility we have, but this is an area where the 
Federal Government really can play a role. We would like to see the 
Forest Service, through USDA and also APHIS, focus on this and really 
work in partnership with the states to design a system that will 
prevent the spread of invasives through the interstate movement of 
firewood. It's a hole in the system, and I don't think it's a hole that 
just the states can address. I think we gotta work with Federal 
Government on it.
    Mr. Baca. Matt, can you please provide some examples of how you 
have used the Federal, state, and private forestry funding to protect 
and sustain forests in Wisconsin?
    Mr. Frank. Well, absolutely. The Forest Legacy fund, Federal Forest 
Stewardship funds have been absolutely essential in us protecting and 
preserving forested land in Wisconsin. We are fortunate in this state 
that the people of Wisconsin have committed to a strong state 
stewardship fund. I think we have a model for the nation, one of the 
best ones in the country. Governor Doyle has been a huge supporter of 
that fund. We recently got it reauthorized for another 10 years with 
additional money. Under that program we set aside over 500,000 acres 
for public use and enjoyment for generations to come.
    We are able to be successful in that program because we leveraged 
dollars, state taxpayer dollars, with other sources. One of those 
sources is the Federal Legacy Act, which has allowed us to acquire, for 
example, Willow flowage. We have, I think on the current Congressional 
list, there is the Chippewa flowage acquisition and Wild Rivers 
acquisition. We are able to acquire additional lands because the 
Federal Government makes those dollars available. We are very pleased 
that there's additional Legacy Act funding in the Administration's 
budget that's before Congress.
    We'd like to see, as we move along here, to see a greater 
commitment to the stewardship side of the budget as well. Those dollars 
from the Federal Government help us work with private landowners to 
work on sustainability and certification, good forest management. Those 
are also important dollars. We are not asking the Federal Government to 
pay for all of it, but those partnership dollars are really important 
to our efforts.
    Mr. Baca. One last question, then I'm going to turn it over to Dr. 
Kagen. What is the State of Wisconsin doing to improve the timber 
market?
    Mr. Frank. Well, that--it has been very difficult in the timber 
industry with the state of the national economy. With what's happened 
in the housing market, wood products in general, it has been a very 
tough few years, and I think you'll probably hear from some folks on 
the second panel who will talk about that. One of the things we are 
trying to do is we are working with our loggers to try to ameliorate 
the impacts of this downturn. We've had contracts that we'll enter into 
them to harvest wood on state properties. It may be that given the 
market the way it is, it just doesn't make economic sense to be able to 
get that wood out on the market because the prices are too low. We're 
engaging in a variety of practices to try to work with our loggers so 
that they aren't hit too hard by that, and we have engaged in a number 
of things.
    I think, obviously, number one, a turnaround in the national 
economy will be helpful across the board. If you can get the housing 
part of the economy moving again and people building homes and buying 
furniture and all the things that our wood products industry supports, 
that will be helpful. But, second, I think key strategic investments 
that will help the health of our forest economy in the future are real 
important. Getting money in from the Federal Government to support 
things that--we are very happy that the Department of Energy has made a 
grant to the University of Wisconsin to be a leader in researching 
cellulosic ethanol. That kind of research, those kind of investments, 
can really benefit our forest and our economy strategically in the long 
run. As we move to research and develop commercial uses of cleaner 
renewable energy from our forests, we have the opportunity, I think, to 
really add to the underlying strength of that economy, one that would 
grow beyond what we have now with the paper and wood products to have 
other economic values for our forests.
    The second part of that is under the climate change bill to make 
sure we have a strong forestry and agricultural offset program that 
takes advantage of the fact our forests and our ag lands can be carbon 
sinks, as we're trying to get reduced greenhouse gases. Waxman-Markey, 
it's important that that bill, as it goes through the Senate, contain a 
strong offset program. We think that will benefit our forests as well 
and give it even greater economic value because it will encourage 
forest to stay in forest. So there's a range of Federal policies, I 
think, that ultimately impact that economic future of our forests.
    Mr. Baca. Thank you, Matt. I'll turn it over to Dr. Kagen for some 
questions.
    Mr. Kagen. Thank you, Mr. Chairman. Thank you, again, for your 
testimony, Mr. Frank. You mentioned a couple things that interest me. 
Cellulosic ethanol, biotechnology, the University of Wisconsin has been 
leading the way. In many respects, Wisconsin in its forward thinking 
has been leading the way, but if we don't sustainably manage and 
harvest our national forests, what's the point of investing in 
cellulosic if we can't then begin to level the playing field and allow 
this activity to take place? Do you have a--can you make a comment 
about the harvesting of our hardwoods in our national forests?
    Mr. Frank. Yes, Congressman. I believe that the national forest has 
come up with a very strong plan. The plan was approved in 2004. It was 
a management plan that we applaud the Forest Service for getting input 
from many partners. Wisconsin DNR had input. There were a lot of 
stakeholders that had input into that. We firmly believe that you can 
grow our economy with clean and renewable energy and do it sustainably. 
I think there's a good groundwork for this in our national forest with 
that forest management plan; we'd like to see it implemented. And, yes, 
we think that we should give some consideration, at least here. Now, 
this is where you may, as you look at this issue across the country, it 
may differ by national forests. Congress Baca and Congressman Kagen, 
you may hear different things in other parts of the country. Here we do 
believe that there are parts of the national forest that the Forest 
Service could responsibly and sustainably harvest, and that should be 
part of the equation. And we hope that Congress will work with the 
Federal agencies and continue to work with us on looking at that.
    Mr. Kagen. You also mentioned the idea of certification, and maybe 
you could speak to this importance of having certified forests. What 
difference does it make to educate other Members of the Agriculture 
Committee in Washington? Can you make some comments about the 
certification, the value of having certified forests and certified 
woodlands?
    Mr. Frank. Absolutely. We've been very committed in Wisconsin to 
sustainably certifying our forests, and just late this last year, we 
just introduced another two million acres into a third-party 
certification program which is, I think, one of the largest private 
entries into the program--in any program in its history. We have a 
big--Governor Doyle made a big commitment to this on our state lands 
when he first came in 2003. We've got our state lands certified. We've 
made progress with our private lands. We'd like to see our national 
forests be part of that program.
    It's important for two reasons. Number one, it helps grow our 
economy. More and more the marketplace is looking for that 
certification to say, we want to know that you are committed to 
sustainable management. You've got catalog companies like Patagonia 
that want to make sure that the paper that they're printing their 
catalog on is coming from sustainable forests. That's just one example. 
We are seeing that more and more in the marketplace. We're seeing 
consumers demand it. We're seeing companies down the supply chain 
demand it. So it's important, we believe, for our economic future to 
have that sustainable imprint or that certification imprint.
    The second reason it's important is because it also says--it also 
means something very important for our environment. As we harvest and 
manage our natural resources, we are committed to doing that 
sustainably, and private landowners who are certified are making that 
commitment. So certification is important both for a strong economic 
reason and for an environmental reason.
    Mr. Kagen. Thank you very much. There was a group that couldn't be 
here this morning, that's the Menominee Tribal Enterprises, and we are 
very fortunate to have here in Wisconsin I think the only virgin forest 
in America that remains. And they do sustainably manage and harvest 
their woodlands and their forests, and they are a certified forest.
    And to that end, Ms. Higgins, is the national forest certified?
    Ms. Higgins. No, we are not.
    Mr. Kagen. Is that a problem?
    Ms. Higgins. Well, certainly, as you heard from Secretary Frank, 
there would be some benefits certainly to the State of Wisconsin and to 
the economies in Wisconsin if we were certified.
    Mr. Kagen. Is there a process in place?
    Ms. Higgins. There has been an evaluation of the certification 
process, and the Chequamegon-Nicolet was one of six national forests 
where there was a test completed related to the certification process. 
That testing process helped the agency determine what sort of issues 
were at play in terms of becoming certified. And we are currently as an 
agency in discussions with the certifying bodies about what it would 
take to actually certify the national forest.
    Mr. Kagen. Is there any roadblock that you feel is in the way of 
the certification process that you need Members of Congress to be 
working on or is this something you can work through on your own.
    Ms. Higgins. Well, I believe it's something the agency can work 
through. Although, certainly further information about the challenges 
of the national forest becoming certified would be, I think, of benefit 
to you to understand a little bit better.
    Mr. Kagen. Secretary Frank also mentioned the forest management 
plan, and you have such a plan. And how is that plan being carried out? 
Have you met your goals for harvesting? What percent of the harvest 
have you met.
    Ms. Higgins. The 2004 Land Resource Management Plan, as I 
mentioned, is a balance of providing lots of benefits. If we were to 
fully implement our plan, we would be treating about 20,000 acres a 
year of our vegetation, which could supply up to 131 million board feet 
of timber per year. We were currently treating about half of that, 
which is allowing us to supply about 70 to 80 million board feet per 
year.
    Mr. Kagen. This concerns me very greatly, because without those 
board feet coming out of the national forest, you are not really 
feeding the mills and the arts that are in close proximity. It really 
hurts our economy, wouldn't you agree?
    Ms. Higgins. Well, certainly we have been able to sustain the level 
between 70 and 85, and so we have been able to maintain a sustainable 
level of timber to the markets. Could more help our local economies? I 
would expect most people would agree that to be true.
    Mr. Kagen. So you'd be in agreement to opening up the national 
forest to additional harvesting?
    Ms. Higgins. Well, certainly our forest plan allows for that and 
would be sustainable up to that level that I mentioned before.
    Mr. Kagen. Thank you very much. Does that red light really mean 
anything? You are on the record.
    Mr. Baca. I am on the record. It's supposed to mean something. We 
go beyond the time limit. And we have additional time.
    Mr. Kagen. Let me go back to Secretary Frank and ask about the 
Stewardship Program and what other programs you think Congress should 
be investing into to assess Wisconsin's forest economy?
    Mr. Frank. Well, I do think we talked about the Forest Stewardship 
Program, Forest Legacy Program, very, very important. I would like to 
bring up an issue I alluded to in my opening remarks, and that is the 
issue of fire suppression. This is an important issue all over the 
country. And I know, Chairman Baca, we were talking just a little bit 
about the challenges that California has. We also have challenges in 
this state. It's been very dry, as Jeanne mentioned, and we have more 
fires here, and we move quickly to try to put those out. But I think 
one of the things we'd like to see in the Federal budget is to have 
more dedicated funding within the Forest Service budgets to fight 
fires. What's happened in the past is there hasn't been enough money 
appropriated initially, and then the agency is looking for where do 
they get money to fight fires. Well, they then look to other parts of 
the budget, and they have to take money out of there. Well, so, the 
dollars ultimately end up supporting the fire efforts, which is 
critical, but then you are kind of taking money away from other 
strategic areas of the budget. So that's an area that, as I mentioned, 
I think this current legislation before the Congress and the budget 
makes a step in the right direction. We'd like to see it go even 
further. But have that dedicated funding.
    If you look at a map of the United States in general, and you look 
at the number of forest fires we're having, certainly in the West we 
know that, we're seeing a greater incidence of forest fires. We need to 
acknowledge that and make sure that we have enough money to get the job 
done.
    The second thing I think we could do in terms of that is to better 
coordinate state efforts and Federal efforts in fighting fires. We have 
a lot of cooperation. I know we send fire fighters to California to 
help California out once in a while, and we do this across state lines, 
but we think there's even greater opportunity to get efficiencies in 
fighting forest fires by a greater collaboration between state and 
Federal authorities. And I think this is a challenge, it's going to get 
greater before it gets less. And I think it's an area that we've got 
some good cooperation, but I think we can even do better.
    Mr. Baca. Excuse me, if I could----
    Mr. Kagen. One more question.
    Mr. Baca. In the same vein, then you can ask an additional 
question. On the same subject matter of fighting fires, on the 
equipment that we have, is the equipment coming from us or are we 
outsourcing part of it to fight fires in the areas? Are we getting 
some--if it means helicopters, airplanes, or something that comes in 
from Canada or some other place? Matt?
    Mr. Frank. We do, Congressman, we do use Federal dollars to help 
purchase fire fighting equipment, and it helps us in a couple ways. 
Federal dollars help us upgrade our fire fighting equipment that we 
have in the forest division within the DNR. These are big pieces of 
equipment that we have to basically modify and retrofit specifically 
for the purpose of fighting fires. We have people in our agency who 
actually know how to do that. It's a very specialized kind of work. We 
get Federal dollars to do that. And I can tell you with budgets being 
the way they are, we are maintaining a level, but you're looking at an 
infrastructure in that equipment that's getting older and older, and 
then you look at the question of how long has this equipment been out 
there? It's been 18 years. Can we get another 2 years out of it or do 
we replace it? Those are the kinds of decisions you make. So Federal 
support for that is important.
    The other thing is the money that we get from the Federal 
Government flows through the DNR and we, in turn, then get that money 
out to local fire fighting agencies. We couldn't do the work we do 
fighting fires in Wisconsin without coordinating with the Federal 
Government, as well as working with local units of government. 
Townships, municipalities, local fire crews, they come out, and they 
work with us in helping put out forest fires, and those Federal dollars 
are passed through to them. So that's another important funding source 
that we need to support.
    Mr. Baca. I agree with you. I just wanted to make sure that we had 
all the equipment, that we're not always outsourcing to other entities 
to provide for the safety of our forests as well. I know in California 
sometimes we are outsourcing, much of it comes outside the area, and 
there's a concern that our fire fighters, our forest fire fighters have 
the kind of equipment that they need to prevent any casualties. I'm 
sorry to interrupt you, go ahead.
    Mr. Kagen. No, I appreciate the line of questioning. And my concern 
is, I'm sure everyone in this room and everyone in this country is 
aware, in these challenging economic times, asking Washington for 
additional funding may not be very successful for you. So I would come 
back to the key word, which is prevention. It works pretty well in 
healthcare, and it must work pretty well in the management of our 
forests. But is it true, is it your understanding, that by harvesting 
the woods is a manner in which to prevent forest fires?
    Mr. Frank. Certainly sustainable forestry management includes as a 
component trying to--you know, if you do have a forest fire, so that 
you don't have a catastrophic forest fire.
    Mr. Kagen. Doesn't that also mean that our national forestland here 
in northeast Wisconsin is at risk of suffering from a forest fire 
because it is not being--you are not meeting your goals of harvesting 
100 percent of the trees you've intended to under the plan for 2004.
    Mr. Frank. I think I would be hesitant to say there's a direct 
correlation. I think sustainable management----
    Mr. Kagen. Would you agree that we would be reducing the risk by 
following the plan.
    Mr. Frank. Yes. I think a good sustainable forest plan, whether 
it's national forest or state forest or a private forest, one of the 
factors you take into account is forest fire prevention. And I think 
that is----
    Mr. Kagen. Jeanne, would you like to comment? Would you like to 
comment on that? Would you also agree that by meeting your goals in the 
2004 management plan, you could reduce the risk of forest fire in the 
forest.
    Ms. Higgins. Yes. Yes, I concur. The statistic that I think is 
important to recognize in the national forest, that we have over 
350,000 acres that's within the wildland urban interface. There's a lot 
of private land within the boundaries of the national forest, so it is 
very important that we fully implement our plan so that we can reduce 
that risk.
    Mr. Kagen. My final question would be, I'm looking for an 
explanation as to why you have been unsuccessful in meeting your goals 
from the 2004 plan. What's holding you up, the process? Is it people? 
Is it funding? Is it just bad weather.
    Ms. Higgins. We have a highly dedicated staff of people on the 
national forest that they're very dedicated to their work, so I don't 
think it's the people that work on the national forest. Certainly we 
have been--many of our decisions have been in litigation the last 
several years, and so in terms of fully implementing the plan, a 
portion of that has been challenged.
    Mr. Kagen. Would it be fair to conclude then if we are putting 
our--is it true that we're putting our national forest at greater risk 
of fire because of a litigious process? If it's not the people and it's 
not the weather, I'm looking for, what do you think.
    Ms. Higgins. Well, I believe that our--being able to fully 
implement the plan is certainly going to help reduce that fire risk.
    Mr. Kagen. Thank you. Mr. Chairman.
    Mr. Baca. Thank you. Ms. Higgins, I have an additional question, 
it's probably along the same lines, how closely are you working with 
the state, county, and private foresters to limit the spread of an 
invasive species like the emerald ash borer.
    Ms. Higgins. We have a very good cooperative relationship with the 
state and our other Federal partners, too, in terms of trying to reduce 
the spread of insects and disease. And we have several of those that 
affect our forests. But in terms of the greater risk, I think we 
probably all agree right now that emerald ash borer, which is on our 
doorstep, could have a fairly significant impact on our forests. And so 
we have worked closely to put together closure orders to prevent 
firewood from being transported. Our efforts have been around 
prevention and education associated with the possible effects emerald 
ash borer could have if it is transported across the state.
    Mr. Baca. And, Mr. Frank, can you answer that, because that also 
goes right back to the original question that we were talking about 
fire fighters or fires in our forests, because that also has an impact 
if we don't deal with the insects that we have in the area. In our area 
we have the bark beetle.
    Mr. Frank. Definitely. The thing about our forests is forests are 
themselves and part of an ecosystem. All of these issues are 
interrelated, so. And I appreciate your tying these issues together in 
that fashion. I think a good--a good, strong sustainable forest 
management plan deals with invasives, deals with fire protection, deals 
with economic harvest, and brings all those things together in a way 
that makes sense. So, yes, I think dealing with the invasives issue is 
important. And I'll tell you, it's important even if the trees 
ultimately don't burn down. When you look at--we have 760 million ash 
trees in Wisconsin. Twenty percent of our urban forests in Wisconsin 
are ash. If that invasive pest ends up attacking all of those--so far 
we are doing the research, but it's always fatal to the tree right now. 
Once you've got it it's fatal to the tree--that has a tremendous impact 
on our forest for all sorts of reasons. So this invasives issue is of 
great concern, and I think it's something that we need to strengthen. 
And I think we need to think about more than just education.
    It's difficult for us to--we work cooperatively with Illinois, for 
example. We love it when people from Illinois come up and camp in our 
forests, but we encourage them to buy firewood up here. We've got to 
look at the commercial transfer of firewood across state lines. You 
know, you can now go in stores and buy firewood from a lot of places. 
Firewood could be ending up in Wisconsin not just from Illinois but 
halfway across the country. You've got 13 states with emerald ash borer 
right now. This is an area that we think needs more attention, and we 
need to have a more coordinated Federal policy looking at this issue.
    Mr. Baca. Thank you. I know that we've run out of time, but 
hopefully you'll submit some kind of written statement, both of you, in 
reference to the endangered species that may impact our forests as 
well, what can be done, or what changes need to be done, as we address 
that area, because I'm very much concerned. Although I am a Democrat, 
I'm very much concerned with its impact in California in some of the 
habitats that are listed in areas that have a lot of growth and 
development. And how do we protect the environment? And what about 
endangered species? I hope we can address those sometime in the future.
    Mr. Baca. With that I want to thank the first panelists for being 
here this morning. Thank you very much for your expertise.
    Mr. Kagen. The second panel is Henry Schienebeck, Executive 
Director, Great Lakes Timber Professionals, Rhinelander, Wisconsin; 
Kathrine Dixon, State Attorney, Environmental Law and Policy Center, 
Chicago; Butch Johnson, Bill Johnson, from Johnson Timber, Hayward, 
Wisconsin; and also joining us is Gary Zimmer with the Ruffed Grouse 
Society. If you would come up and take a chair.
    We will begin with Henry Schienebeck. You may start the clock now.

               STATEMENT OF HENRY SCHIENEBECK, EXECUTIVE 
              DIRECTOR, GREAT LAKES TIMBER PROFESSIONALS 
                  ASSOCIATION, RHINELANDER, WISCONSIN

    Mr. Schienebeck. I'll just apologize right up front; loggers are 
just used to doing a job until it's done.
    My name is Henry Schienebeck, I'd like to offer the following 
testimony on behalf of the Great Lakes Timber Professionals Association 
in regards to forest resource management in northern Wisconsin. First 
of all, we'd like to take this opportunity to thank the Committee, 
especially Congressman Kagen, for acknowledging the importance of the 
forest products industry to society and the need to find a reality in 
management of that resource.
    The forest products industry has long been a viable source of 
revenue for the State of Wisconsin as well as the entire nation for 
well over 100 years. Like many of the members our organization 
represents, I'm a third-generation logger with a great amount of 
passion for the timber industry and the people who work in that 
industry both directly and indirectly. In order for us to remain in 
business for generations to come, we understand that--we understand 
more than most the need to maintain healthy sustainable forests. We 
support multiple-use forests, and we also agree there should be parts 
of the forest that should remain untouched and unmanaged and managed 
only by nature itself. We understand the need to balance all the 
marvelous things nature has to offer with a forest product industry 
which has been a backbone of this nation since its beginning.
    The forest products industry is the second largest industry in 
Wisconsin generating over $26 billion for the state's economy. From 
2005 until the present time, Wisconsin forest products industry has 
lost over 24,000 jobs in all sectors from harvesting trees to 
manufacturing of paper, paperboard, and furniture. Over 38 percent of 
those jobs have been lost in the elimination of 16 paper mills since 
2002. Several reports show that the lack of available stumpage is one 
of the major reasons for job loss in Wisconsin and the United States as 
a whole. Raw material to make paper, lumber, furniture, and a variety 
of other products has been hampered severely by the lack of available 
timber, especially from the Federal forest. Because of the lack of 
timber being offered for sale in Federal forests, more pressure has 
been put on county, state, and private lands to support industry with 
raw material. Because of the unnecessary lack of raw material from 
Federal forests, the cost of that raw material has been driven high 
enough to put Wisconsin and the United States at a competitive 
disadvantage in the world economy. And that alone has put over 92 major 
companies out of business in region nine.
    Nationwide the Federal forest--or the Federal Government owns 597 
million acres of land of which 107.7 million acres are included in 
wilderness designation, and that excludes all harvesting and most 
recreational activities. Over 100 million additional acres of Federal 
land are in designations that exclude harvesting trees as a tool to 
maintain forest health, leaving about 389 million acres.
    By comparison, the Chequamegon-Nicolet National Forest encompasses 
just over 1.5 million acres of which 1.3 million acres are forested. Of 
that 1.3 million acres, 446,000 acres, or a full \1/3\, are placed in 
designations that exclude timber harvesting. On the remaining 854,000 
acres, the growth rate is in excess of 150 million board feet per year, 
which should be removed to maintain a healthy forest. The current 
management plan calls for removal of 131 million board feet per year, 
and of that 131 million board feet an average of only 85 million board 
feet have been removed over the last five years. In other words, just 
over 50 percent of sustainable harvest have been removed from the 
Chequamegon-Nicolet. By comparison, the State of Wisconsin as a whole 
has harvested an average of 69 percent of its current annual growth. 
And to put that in perspective, 20,000 board feet of timber provides 
enough raw material to sustain one job in the forest products industry. 
Over the last five years the amount of timber that went unharvested 
could have provided 4,400 jobs for Wisconsin alone.
    For the above reasons, the forest products industry is at an all-
time low in Wisconsin and the United States. In order to get help the 
forest products industry--in order to get help to get our industry 
moving again in a timely fashion, we would offer the following 
suggestions:
    First, once the forest management plan is agreed on, let the Forest 
Service implement the plan without interruption. We find it 
inconceivable that tens of thousands of dollars are spent on a draft 
and then a final management plan only to have them litigated once they 
are put into action. In our opinion, there are millions of dollars 
being spent tying up the legal system on issues that could most likely 
be worked out in face-to-face meetings with other groups and industry.
    Second, Congress should fully fund the forest management plans once 
they are implemented. If it is the mission of this Committee to get the 
economy back on track, then it is imperative that the forest products 
industry can count on a constant supply of raw material to manufacture. 
It would simply be impossible for any company to create a business plan 
for investing in a new business or grow an existing one knowing that 
raw material may not be available on a continuous basis.
    Third, Wisconsin forests have been dual certified by FSA and SFI to 
supply industry with sustainably harvested fiber. We would suggest that 
the Forest Service be certified as well, or possibly use the Master 
Logger Program to harvest Federal timber in support of the industry to 
provide sustainably-managed products to the world economy.
    Thank you for the opportunity, and I will be happy to answer any 
questions.
    [The prepared statement of Mr. Schienebeck follows:]

  Submitted Statement of Henry Schienebeck, Executive Director, Great 
     Lakes Timber Professionals Association, Rhinelander, Wisconsin
    Good morning Mr. Chairman and Committee Members:

    My name is Henry Schienebeck and I would like to offer the 
following testimony on behalf of the Great Lakes Timber Professionals 
Association in regards to forest resource management in Northern 
Wisconsin. We would like to take this opportunity to thank the 
Committee and especially Congressman Kagen for acknowledging the 
importance of the Forest Products Industry to society and the need to 
find a reality in management of this resource.
    The Forest Products Industry has long been a viable source of 
revenue for the State of Wisconsin as well as the entire nation for 
well over 100 years. Like many of the members our organization 
represents, I am a third generation logger with a great amount of 
passion for the timber industry and the people who work in that 
industry both directly and indirectly. In order for us to remain in 
business for generations to come, we understand more than most the need 
to maintain healthy sustainable forests. We support multiple use 
forests and we also agree that they should be parts of the forest that 
should remain untouched and managed only by nature itself. We 
understand the need to balance all the marvelous things nature has to 
offer with a Forest Products Industry that has been the backbone of 
this nation since its beginning.
    The Forest Products Industry is the second largest industry in 
Wisconsin generating over $26 billion dollars for the states economy. 
From 2005 until the present time, Wisconsin Forest Products Industry 
has lost over 24,000 jobs in all sectors from harvesting of trees to 
manufacturing of pulp, paper, paperboard and furniture. Over 38% of the 
jobs have been lost in the elimination of 16 paper mills alone since 
2002.
    Several reports show that a lack of available stumpage is one of 
the major reasons for job loss in Wisconsin and the United States as a 
whole. Raw material to make paper, lumber, furniture and a variety of 
other products has been hampered severely by the lack of available 
timber especially from Federal Forests. Because of the lack of timber 
being offered for sale on the Federal Forest, more pressure has been 
put on county, state and private lands to supply the industry with raw 
material. Because of the unnecessary lack of raw material from Federal 
Forests, the cost of that raw material has been driven high enough to 
put Wisconsin and the United States at a competitive disadvantage in 
the world economy. That alone has put over 92 major companies out of 
business in Region 9.
    Nationwide the Federal Government owns 597 million acres of land of 
which 107.7 million acres are included in wilderness designation which 
excludes all harvesting and most recreational activities. Over a 
hundred million additional acres of Federal forest land are in 
designations that exclude harvesting trees as a tool to maintain forest 
health leaving about 389 million acres for other uses.
    By comparison the Chequamegon-Nicolet National Forest (CNNF) 
encompasses just over 1.5 million acres of which 1.3 million acres are 
forested. Of that 1.3 million forested acres, 446,000 acres or a full 
\1/3\ of the forested acres, are placed in designations that exclude 
timber harvesting. On the remaining 854,000 acres, the growth rate is 
in excess of 150 million board feet per year which should be removed to 
maintain a healthy forest. The current CNNF management plan calls for 
removal of 131 million board feet per year. Of that 131 million board 
feet an average of only 85 million board feet per year have been 
removed over the last five years. In other words just over 50% of the 
sustainable harvest growth has been removed from the CNNF. By 
comparison the state of Wisconsin as a whole harvested an average of 
69% of current annual growth. To put that in perspective, 20,000 board 
feet of timber provides enough raw material to sustain 1 job in the 
forest industry. Over the last five years the amount of timber that 
went un-harvested could have provided 4,400 jobs for Wisconsin alone.
    For the above stated reasons the forest products industry is at an 
all time low in Wisconsin and the United States. In order to help get 
the Forest Products Industry moving again in a timely fashion we would 
offer the following suggestions:

    <bullet>  First, once the forest management plan is agreed on, let 
the Forest Service implement the plan without interruption. We find it 
inconceivable that tens of thousands of dollars are spent on draft and 
final forest management plans only to have them litigated once they are 
put in to action. In our opinion there are millions of dollars being 
spent tying up the legal system on issues that could most likely be 
worked out in face to face meetings between industry and other groups 
of interest.

    <bullet>  Second, Congress should fully fund the Forest Management 
plans once they are implemented. If it is the mission of this Committee 
to get the economy back on track, then it is imperative that the Forest 
Products Industry can count on a constant supply of raw material to 
manufacture. It would simply be impossible for any company to create a 
business plan for investing in a new business or grow an existing one 
knowing raw material may not be available on a continuous basis to 
support the project.

    <bullet>  Third, Wisconsin forests have been dual certified by FSC 
and SFI to supply industry with sustainably harvested fiber. We would 
suggest that the Forest Service be certified as well or possibly use 
the Master Logger Program to harvest Federal timber in support of the 
industry to provide certified products to the world economy.

    Thank you for the opportunity to testify and I will be happy to 
answer any questions.

    Mr. Baca. Thank you very much. Ms. Dixon.

STATEMENT OF KATHRINE DIXON, STAFF ATTORNEY, ENVIRONMENTAL LAW 
              AND POLICY CENTER, CHICAGO, ILLINOIS

    Ms. Dixon. Good morning, Mr. Chairman, Congressman Kagen. I 
am Kathrine Dixon, staff attorney with the Environmental Law & 
Policy Center, which is the Midwest's leading public interest 
environmental advocacy organization. Thank you for your 
invitation to testify before you today on forest resource 
management in northern Wisconsin. Your leadership on this issue 
is greatly appreciated, and we are very glad to be part of the 
discussion.
    For the past eight years, ELPC attorneys and policy 
advocates have partnered with members of the Wisconsin 
scientific and conservation community to push for restoring 
balance to forest management in the Chequamegon-Nicolet 
National Forest. In recent years, the balance, the Federal 
forest management and the Chequamegon-Nicolet, has tipped 
heavily in favor of logging to the detriment of other uses and 
values. In short, the Forest Service has simply proposed too 
much logging, too fast, in too many of the places that are most 
important for wildlife habitat, clean water, and recreation.
    My written testimony discusses three primary areas of 
concern that must be part of future forest management in 
Wisconsin.
    First, Forest Service must take steps to reduce landscape 
fragmentation. Recent studies published by University of 
Wisconsin Professor Don Waller show that severe fragmentation 
of Wisconsin's forestlands is seriously impacting both plant 
and animal species across the state. The Forest Service must 
implement a policy of sharply reducing roads and other 
fragmenting features. It must also take active steps to 
preserve large patches of interior forest and create movement 
borders to expand habitat options.
    Second, the Forest Service must do more to ensure viable 
populations of native and desired nonnative plant and animal 
species. Scientific evidence demonstrates that populations of 
several of Wisconsin's species are dwindling at an alarming 
rate in Chequamegon-Nicolet. Forest Service must set 
enforceable target population numbers for each of the species 
that it manages. It must also make a serious effort to 
determine the impacts of its management practices on sensitive 
species through rigorous monitoring and analysis.
    Third, the Forest Service must begin to take climate change 
into account in forest planning. New evidence shows that the 
Chequamegon-Nicolet is storing carbon dioxide at a rate that 
far exceeds its size as a percentage of the nation's forested 
land. Forest Service must adopt management practices that are 
designed to maximize this carbon sequestration potential, which 
is not only good for the environment, but could also be good 
for the Wisconsin economy when the carbon market becomes a 
reality.
    Forest Service must set a standard for forest management 
that addresses these three concerns based on the best available 
scientific evidence and silvicultural knowledge.
    However, before we can think about developing and 
implementing new policies, Forest Service must take a fresh 
look at existing logging proposals. The Forest Service has 
proposed 17 major timber sales since 2002, adding up to over 
150,000 acres. Our coalition of supporters is not opposed to 
logging. We appreciate the Forest Service's mandate to managing 
its land for multiple uses, but the amount of logging proposed 
in the Chequamegon-Nicolet is not environmentally responsible, 
nor is it sustainable over the long term. This trend must 
change.
    With new agency leadership being put in place, there is an 
opportunity to craft new policies that account for the full 
range of resources that the Forest Service must oversee. But, 
in the meantime, we cannot lose important resources based on 
old and outdated ideas. Once trees are cut, they cannot be 
stuck back in the ground like matchsticks. We need a chance to 
step back and reassess. The LPC and our colleagues have 
presented the Forest Service with reasonable middle ground 
proposals for modifying each of their major logging proposals 
in ways that would allow significant amounts of logging to go 
forward, while also preserving the most important ecological 
areas. These proposals are grounded in good science and in an 
intimate knowledge of the resources at stake. We are calling on 
the Forest Service to adopt these proposals now so the 
important resources are not lost while we begin the process of 
developing a new long-term approach that factors in many of the 
recommendations made before the panel today.
    Thank you for your interest in this topic. We look forward 
to working with you, with the Forest Service, and with the 
other people in this room today on policies that protect 
Wisconsin's natural lands and their many values. I'm happy to 
answer any questions.
    [The prepared statement of Ms. Dixon follows:]

      Submitted Statement of Ms. Kathrine Dixon, Staff Attorney, 
                             Environmental 
                Law and Policy Center, Chicago, Illinois
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Baca. Thank you. Mr. Johnson.STATEMENT OF WILLIAM ``BILL'' E. JOHNSON, 
             PRESIDENT, JOHNSON TIMBER, HAYWARD, WISCONSIN 

    Mr. Johnson. On behalf of my family's business, Johnson Timber and 
Flambeau River Papers, I'm pleased to submit the following statements 
for the record.
    Mr. Chairman, Congressman Kagen, on behalf of our 358 employees, I 
appreciate the opportunity to appear before you today to talk about the 
future of our industry and the role national forests can play in that 
future.
    We are members of the American Forest & Paper Association. AF&PA is 
the national trade association of the forest products industry, 
representing forest landowners, pulp, paper, paperboard, and wood 
products manufacturers. Like our fellow AF&PA members, we produce 
products essential for everyday life from renewable and recyclable 
resources that sustain the environment.
    The next paragraph goes on about Wisconsin. I think we've heard 
enough about that from previous speakers, so I'll skip over that.
    We are leaders in efforts to reduce carbon emissions and to 
increase the use of renewable energy. Between 2000 and 2006, AF&PA 
member companies reduced their greenhouse gas emissions intensity by 14 
percent. Our recycling efforts help prevent the emissions of 21.1 
metric tons of CO<INF>2</INF> from landfills, and managed forests and 
forest products store enough carbon each year to offset approximately 
ten percent of U.S. CO<INF>2</INF> emissions.
    We are also the leading producers and users of renewable biomass 
energy. We produce 28.5 million megawatt hours annually, enough to 
power 2.7 million homes. In fact, the energy we produce from biomass 
exceeds the total energy produced from solar, wind, and geothermal 
sources combined. Sixty-five percent of the energy used at AF&PA member 
paper and wood products facilities is generated from carbon-neutral 
renewable biomass.
    At Flambeau River Paper, we have taken the steps to make us the 
first completely fossil fuel-free pulp and paper mill in North America. 
By purchasing biomass more efficiently for our biomass boiler, we have 
reduced our consumption of coal and natural gas by over 60 percent 
since we purchased the mill in 2006, and by the end of August--excuse 
me, by the first of August, we expect to become 100 percent free of 
coal at our facility. Further, within three years we anticipate we will 
be the first fully functioning integrated biorefinery pulp mill 
producing approximately 18 million gallons of cellulosic green diesel 
from forest residuals. This will reduce our carbon footprint by 
approximately 140,000 tons per year while employing an additional 40 
people directly at our facilities and an additional 125 indirectly who 
are in the woods.
    Companies like Flambeau River Papers and our sister companies in 
the wood and paper industries are big businesses, employing hundreds 
and in some cases tens of thousands of people. But we are a large 
business that creates and sustains and, in turn, depends on dozens of 
small businesses. When we acquired Flambeau River Papers in 2006 and 
took the steps to reopen the mill, Governor Doyle estimated that this 
would help sustain 300 small logging businesses whom we rely on to 
supply--that we rely on to supply the 140,000 cords of pulp that we 
continue to use annually. The national forests of Wisconsin, 
particularly the Chequamegon-Nicolet, rely on these small businesses to 
help them achieve their management objectives. We consume approximately 
13,000 cords of Forest Service fiber at Flambeau River Papers, and in 
addition to that in the future we would require, the company estimates, 
we'd procure about 38,000 additional cords.
    The interdependence of businesses such as ours, small logging 
contractors, and national forests becomes even more important during 
difficult economic times. Before we entered the paper business, Johnson 
Timber was one of the leading innovators in chip supply for the paper 
industry, as well as supplying peeled logs to the sawmill industry in 
the state. The economic downturn that the rest of the economy has been 
experiencing in recent months came early to our industry, and has had a 
profound and lasting impact. Since 2006, nationally, the wood and paper 
products industries have shed over 300,000 jobs, almost a quarter of 
our work force. Paper and lumber production have both declined by well 
over 20 percent in the recent years, with the housing market remaining 
extremely depressed.
    This depression in the market for lumber has made the economics of 
our industry, which are always difficult, even more precarious. That 
makes it critical that policies which are intended to promote biomass 
utilization are carefully crafted to ensure that the existing wood and 
paper industries receive fair and equitable treatment.
    We applaud the leadership shown by the Agriculture Committee, in 
particular you, Congressman Kagen, as it was a full Committee Chair, 
Chairman Peterson from Minnesota, in pressing for positive changes to 
the American Climate and Energy Security Act of 2009 which recently 
passed the House. In particular, we strongly support the inclusion of 
language that clarifies that any mill residues from wood, pulp, or 
paper product facilities will qualify as renewable biomass for the 
various components of the legislation, including the renewable 
electricity standards, the renewable fuels standard, and the cap and 
trade portion of the bill. Without this key change, wood and paper 
products facilities would be faced with the need to purchase carbon 
offsets for all the renewable biomass that we burn. In other words, 
renewable biomass, such as spent pulping liquor, would be treated the 
same as coal or pet-coke. Further, without the expansion of the RFS 
definition, the cellulosic green diesel we plan on producing at 
Flambeau would likely not qualify as renewable fuel.
    I see I'm over time, but I just want to make one more point before 
I'm done.
    We are greatly surprised and disappointed to learn, however, that 
the version of the bill brought to the floor included a new provision, 
Section 553, which would allow the Administrator of the EPA, with the 
concurrence of the Department of Agriculture, to modify the definition 
of renewable biomass after a one-year study. We believe this provision 
is an open invitation for the EPA to revert to the overly-restrictive 
definition included in the Energy Independence and Security Act of 
2007, which has, in essence, excluded all fiber from Forest Service 
lands and will only allow the wood fiber from existing plantations on 
private lands to qualify as renewable biomass.
    As an example, by relying exclusively on wood from existing 
plantations, the RFS definition would exclude all aspen acreage, 
whether on Forest Service, state, or private forestlands. This would 
exclude fiber from aspen forests on over 6.9 million acres in 
Minnesota, 2.8 million acres in Wisconsin, and 3.4 million acres in 
Michigan, not to mention tens of millions of acres of aspen in the 
mountain west. The definition would potentially exclude 118 million 
acres of mixed pine/hardwood forests in the eastern and southern U.S. 
As well.
    You have the rest of my testimony, and I appreciate the opportunity 
that you have given me today. Thank you.
    [The prepared statement of Mr. Johnson follows:]

  Submitted Statement of Mr. William ``Bill'' E. Johnson, President, 
                   Johnson Timber, Hayward, Wisconsin
    On behalf of my family's business, Johnson Timber and Flambeau 
River Papers, I am pleased to submit the following statement for the 
record. Mr. Chairman, Congressman Kagen, on behalf of our 358 
employees, I appreciate the opportunity to appear before you today to 
talk about the future of our industry and the role the National Forests 
can play in that future.
    We are members of the American Forest & Paper Association (AF&PA). 
AF&PA is the national trade association of the forest products 
industry, representing forest landowners, pulp, paper, paperboard, and 
wood products manufacturers. Like our fellow AF&PA members, we produce 
products essential for everyday life from renewable & recyclable 
resources that sustain the environment.
    The forest products industry accounts for approximately 6 percent 
of the total U.S. manufacturing output and employs approximately a 
million people with an estimated annual payroll exceeding $50 billion. 
Here in Wisconsin, we employee more than 60,000 people, with a payroll 
of more than $3.7 billion, producing some $18 billion worth of wood and 
paper products and paying more than $235 million in State and local 
taxes.
    We are leaders in efforts to reduce carbon emissions and to 
increase the use of renewable energy. Between 2000 and 2006, AF&PA 
member companies reduced their greenhouse gas emissions intensity by 14 
percent. Our recycling efforts help prevent the emission of 21.1 
million metric tons of CO<INF>2</INF> from landfills, and managed 
forests and forest products store enough carbon each year to offset 
approximately 10 percent of U.S. CO<INF>2</INF> emissions.
    We are also the leading producer and user of renewable biomass 
energy. We produce 28.5 million megawatt hours annually, enough to 
power 2.7 million homes. In fact, the energy we produce from biomass 
exceeds the total energy produced from solar, wind, and geothermal 
sources combined. Sixty-five percent of the energy used at AF&PA member 
paper and wood products facilities is generated from carbon-neutral 
renewable biomass.
    At Flambeau River paper, we have taken steps that will make us the 
first completely fossil-fuel free pulp and paper mill in North America. 
By purchasing biomass more efficiently for our biomass boiler, we have 
reduced our consumption of coal and natural gas by over 60% since we 
purchased the mill in 2006, and by the end of August we expect to 
become 100% free of coal. Further, within 3 years, we anticipate we 
will be the first fully functioning integrated biorefinery/pulp mill, 
producing approximately 18 million gallons of cellulosic green diesel 
from forest residuals. This will reduce our carbon footprint by 
approximately 140,000 tons per year while employing an additional 40 
people directly and an additional 125 indirectly.
    Companies like Flambeau River Papers and our sister companies in 
the wood and paper industry are big businesses, employing hundreds, and 
in some cases, tens of thousands of people. But we are a large business 
that creates and sustains, and in turn depends on, dozens of small 
business. When we acquired Flambeau River papers in 2006 and took steps 
to reopen the mill, Gov. Doyle estimated that this would help sustain 
300 small logging businesses whom we rely on to supply the 140,000 
cords of pulp wood we consume annually. The National Forests of 
Wisconsin, particularly the Chequemegon-Nicolet, rely on these small 
businesses to help them achieve their management objectives. We consume 
approximately 13,000 cords annually of Forest Service fiber at Flambeau 
River, and we harvest an estimated 38,000 cords annually for other 
operations.
    The inter-dependence of businesses such as ours, small logging 
contractors, and the National Forests becomes even more important 
during difficult economic times. Before we entered the paper business, 
Johnson Timber was one of the leading innovators in chip supply for the 
paper industry, as well as supplying peeled logs to the sawmill 
industry. The economic downturn that the rest of the economy has been 
experiencing in recent months came early to our industry and has a 
profound and lasting impact. Since 2006, nationally, the wood and paper 
products industries have shed over 300,000 jobs, almost a quarter of 
our workforce. Paper and lumber production have both declined by well 
over 20% in recent years, with the housing market remaining extremely 
depressed.
    This depression in the market for lumber has made the economics of 
our industry, which are always difficult, even more precarious. That 
makes it critical that policies which are intended to promote biomass 
utilization are carefully crafted to ensure that the existing wood and 
paper industries receive fair and equitable treatment.
Biomass Energy
    We applaud the leadership shown by the Agriculture Committee, in 
particular by you, Congressman Kagen, as well as full Committee 
Chairman Peterson from Minnesota, in pressing for positive changes to 
the American Climate and Energy Security Act of 2009 which recently 
passed the House of Representatives. In particular, we strongly support 
the inclusion of language that clarifies that any mill residues from 
wood, pulp, or paper product facilities will qualify as renewable 
biomass for the various components of the legislation, including the 
Renewable Electricity Standard, the Renewable Fuels Standard, and the 
cap and trade portion of the bill. Without this key change, wood and 
paper products facilities would be faced with the need to purchase 
carbon offsets for all of the renewable biomass that we burn. In other 
words, renewable biomass, such as spent pulping liquor, would have been 
treated the same as coal or pet-coke. Further, without the expansion of 
the RFS definition, the cellulosic green diesel we plan on producing at 
Flambeau River would likely have not qualified as a renewable fuel.
    We were greatly surprised and disappointed to learn, however, that 
the version of the bill that was brought to the floor included a new 
provision (Section 553) which would allow the Administrator of the 
Environmental Protection Agency, with the concurrence of the Department 
of Agriculture, to modify the definition of renewable biomass after a 
one year study. We believe this provision is an open invitation for the 
EPA to revert to the overly restrictive definition included in the 
Energy Independence and Security Act of 2007, which in essence excluded 
all fiber from Forest Service lands and only allowed wood fiber from 
existing plantations on private lands to qualify as renewable biomass. 
As an example, by relying exclusively on wood from existing plantation, 
the RFS definition would exclude all aspen acreage, whether on Forest 
Service, State, or private forest lands. This would exclude fiber from 
aspen forests on over 6.9 million acres in Minnesota, 2.8 million acres 
in Wisconsin, 3.4 million acres in Michigan, not to mention tens of 
millions of acres of aspen in the Mountain west. The definition would 
potentially exclude 118 million acres of mixed pine-hardwood forests in 
the Eastern and Southern U.S. as well.
    We believe a preferable approach would be to keep the a simpler 
definition of renewable biomass, such as the one used in the 2008 Farm 
Bill, with the addition of reasonable sustainability requirements such 
as a written harvest or forest management plan developed by a 
credentialed forestry professional, or adherence to a forest management 
or wood procurement certification system. As members of AF&PA, Johnson 
Timber and Flambeau River Papers are both committed to the principles 
of sustainable forest management and are 3rd Party Certified by both 
FSC and SFI. Since 1995, all AF&PA members must subscribe to the 
principles of the Sustainable Forestry Initiative (SFI), which sets 
rigorous forest management standards that are reviewed by external 
partners from conservation groups and research organizations. With over 
226 program participants and 156 million acres of certified well 
managed forests, the SFIr program ensures that America's forest and 
paper companies are committed to sustainable management. We believe 
this standard, and other forest management programs such as the 
American Tree Farm System, can help assure the Congress and the 
American public that wood-based biomass energy will be a sustainable 
part of the forest economy.
    We continue to believe that promoting the development of renewable 
energy must be accomplished while providing adequate safeguards to 
ensure that new mandates do not create undue economic or environmental 
harm. With that in mind, we recommend that the Committee include a 
comprehensive study of the impact of renewable energy mandates on both 
economic and environmental factors, with a provision allowing a waiver 
from all or part of the renewable electricity standard if it is 
necessary to prevent economic or environmental harm. We have attached 
specific language which we believe would accomplish these objectives.
    We are concerned that the current legislation unnecessarily 
restricts the use of wood biomass from Federal public lands. As this 
Committee has heard recently from the Administration, between 60 to 80 
million acres of National Forests are densely stocked and at risk of 
catastrophic fire. The current version of ACES restricts harvesting of 
renewable biomass from a number of categories of Federal lands, most of 
which are not open to commercial activities under most circumstances. 
While we believe these restrictions to be mostly redundant, the 
provision prohibiting the removal of biomass from ``old growth'' and 
``late successional stands'' is particularly damaging. While it is an 
improvement over the version of the bill that was approved by the 
Energy & Commerce Committee, it fundamentally misunderstands modern 
forest management and creates the opportunity to inadvertently, and 
unnecessarily, exclude fiber from legitimate timber sales, particularly 
from aspen forests here in Wisconsin.
    Many forest types, including Aspen, lodgepole pine, and many mixed 
hardwood stands in the Eastern U.S. are not harvested until the stand 
has reached biological maturity. The term ``old growth'' is highly 
controversial and many forest plans adopt differing definitions, and 
differing goals regarding the development and retention of old growth. 
In our view, all byproducts of legitimate hazardous fuels reduction 
projects or any Forest Service timber sale which complies with the 
extensive projections required under existing law should qualify as 
renewable biomass.
National Forest Management
    As I noted above, the management of many Lake States forests types, 
such as aspen, jack pine, spruce, and paper birch, thrive with periodic 
harvest. Many of these species are regenerated through periodic 
cutting, after which a new stand grows from the root system of the old 
stand. Keeping a diverse forest landscape not only supplies the raw 
materials needed by our industry, but it provides a diversity of 
habitat types which help insure abundant wildlife populations. Grouse, 
deer, and other game thrive in managed forests, helping to support 
another key element of the Wisconsin economy.
    The National Forests of the Lake States are among the best 
performing in the Nation in terms of achieving timber supply goals. 
Unfortunately, the Chequamegon-Nicolet sold only 64% of it's Allowable 
Sale Quantity in 2007, and performance in the last two years has not 
improved greatly. Even more unfortunately, this is far above the 
National average for the Forest Service: The average national forest 
region sells only 40% of the allowable sales quantity.
    We have appreciated the support that the Congress has shown for the 
National Forest timber sale program in the last several years. It is 
important for Congress to find a way to more fully integrate the 
hazardous fuels reduction program, which has received almost $1 billion 
in the last 18 months, with forest management projects which produce 
merchantable wood fiber. Doing so would allow the Forest Service to 
free up management funds for regions such as the Lake States which 
could easily offer more volume for sale.
Recent Controversies
    In the last several weeks, several old controversies, including 
what to do with the roadless areas in National Forests, and how to best 
manage the process for revising forest plans, have resurfaced. I 
realize that some of these controversies are being forced upon the 
Administration by active litigants and other activists who oppose 
active management of the National Forests. I'd urge this Committee not 
to replay the old controversies which have led to such a precipitous 
decline in the management of the National Forests, reducing timber 
harvest levels by more than 80 percent in the last two decades. The 
relatively modest management program that is taking place on the 
National Forests should not be subjected to endless appeal, debate, and 
delay. Large scale, wholesale revisions of forest management policies 
will do nothing to keep our forests healthy and even less to help keep 
our workers in the woods.
Conclusion
    Thank you again for the opportunity to appear before you today. 
America's wood, paper, and forest industry is critical to the 
resilience and health of our forests and our economy. We have a long 
and proud history of commitment to sustainable forest management, and 
we have been blessed with abundant forest resources. I thank you for 
your efforts to ensure that the management of these forests will remain 
a conservation achievement which future generations should emulate.

    Mr. Baca. Thank you, Mr. Johnson. Mr. Zimmer.

 STATEMENT OF GARY ZIMMER, SENIOR REGIONAL WILDLIFE BIOLOGIST, 
                     RUFFED GROUSE SOCIETY

    Mr. Zimmer. Mr. Chairman, Congressman Kagen, I'm a 45-year 
resident of northern Wisconsin. I live in Congressman Kagen's 
8th Congressional District and can still throw a rock from my 
house to the Chequamegon-Nicolet National Forest. I am also a 
senior regional biologist for the Ruffed Grouse Society. The 
Ruffed Grouse Society is a nonprofit wildlife conservation 
organization dedicated to improving the environment for ruffed 
grouse, American woodcock, and other forest wildlife.
    Man's disruptions of natural disturbance regimes is 
arguably the single greatest threat to sustaining healthy 
forest ecosystems across the United States. We can't turn the 
clock back a century or more, but we can learn from past 
mistakes and recognize the critical role periodic disturbance 
plays in shaping our forested landscapes.
    The virtual elimination of fires in the east has not only 
complicated efforts to sustain aspen, birch, oak, and some pine 
forests, it has hampered the establishment of important young 
forest habitats and associated forest wildlife. Young forest 
habitats are dominated by a dense growth of shrubs and small 
trees that are free to flourish when the canopy of a mature 
forest is removed by fire, mechanical treatment, or some other 
disturbances. Young deciduous forest habitats less than 20 
years old have declined by 41 percent over the past two to 
three decades in the eastern United States. Between The 1960s 
and 1993, Wisconsin has lost about 1.5 million acres of Aspen 
forests, about a million acres between 1980 and 1993 alone, as 
these forests converted to mid to late successional species.
    Today, due to man's intervention, fire's no longer allowed 
to play its natural role in removing old aspen to make way for 
a new aspen forest. Therefore, the only means available to 
ensure long-term forest health and ecosystem integrity in some 
communities is through periodic mechanical disturbance. 
Currently, most aspen forests in Wisconsin that have not 
already been regenerated are overmature, unhealthy, and 
extremely susceptible to death and conversion. Once this 
conversion occurs, it will be virtually impossible to restore 
these aspen communities. Over 81 percent of the aspen forest 
communities in the eastern U.S. Grow in the Great Lakes region. 
This region provides the only realistic opportunity to conserve 
these critical components of biological diversity.
    These habitats support a suite of wildlife species that do 
not exist in mature forests or exist only at very low 
population densities. Wildlife that rely upon young forest 
habitats include the ruffed grouse and American woodcock, two 
important game species pursued by almost one million sportsmen 
and women each year in the eastern U.S., and many nongame 
wildlife that require the protection from predators afforded by 
thick, young forest habitats. Researchers have documented that 
of 187 species of neotropical migratory songbirds that breed in 
the Midwest, more than half use shrub, sapling, or young forest 
habitats to some degree during the breeding season. As these 
habitats decline, so do these and many other wildlife species 
that have been depending on young forest habits. It is 
estimated that 78 percent of the continent's golden-winged 
warbler population is in the upper Midwest, a bird the U.S. 
Fish and Wildlife Service considers a species of ``highest 
conservation priority.'' It appears likely that these forests 
include some of the main sources of golden-winged warbler 
populations in the entire U.S., and some of the last 
opportunities to halt the downward decline.
    Of major concern to my constituents is the inconsistent 
management of our forests. Limited funding, as well as 
management tied up for years by appeals and lawsuits, hamper 
agency efforts to follow the approved forest plan on the 1.5 
million acres in the Chequamegon-Nicolet. The process to revise 
the original 1986 plan began in 1996 and took 8 years to 
complete and approximately 2 years to finalize the appeal 
process. Since then, nearly every vegetative management project 
proposed for implementation on the forest has been appealed 
and/or litigated, with close to 2 years of harvests tied up in 
the legal limbo. Not since 1989 has this forest met its forest 
plan annual goals for aspen regeneration. The cumulative loss 
of young forest habitat across the forest is, in part, the 
reason that species like the American woodcock, brown thrasher, 
golden-winged warbler, loggerhead shrike and veery are listed 
as species of greatest conservation need in Wisconsin.
    I encourage this Committee to work with the Forest Service 
to get forest plan implementation back on schedule, reduce the 
ability of groups or individuals to tie up management 
activities for years and years at little cost to them, but at a 
very high cost to those that live and work in the city or the 
forest and to the taxpayers of this great nation. We are seeing 
mills close, schools being forced to consolidate, and 
multigenerational family businesses going under while a 
renewable natural resource in our backyard is off limits. It is 
a shame to see mills in northern Wisconsin having to haul in 
wood products from Canada or overseas in order to stay in 
business when ample resources exist only a few miles away that 
has been managed sustainably in the past.
    These forests provide some of the last opportunities to 
maintain essential young forest habitat as an important part of 
the biodiversity of our northern forests and meet the social 
and economic demands of society. We urge the Committee to 
consider these important factors in shaping the future of our 
forests. Thank you very much.
    [The prepared statement of Mr. Zimmer follows:]

   Submitted Statement of Mr. Gray Zimmer, Senior Regional Wildlife 
         Biologist, The Ruffed Grouse Society, Laona, Wisconsin
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Baca. Thank you very much. I thank each of the panelists for being 
    here.I begin by asking the first question to Henry Schienebeck. In 
your testimony you mentioned the need for certifying Federal forests 
sustainable. Could you please explain some of the benefits and features 
of the certification, particularly in the Master Loggers Program?
    Mr. Schienebeck. Well, the certification program has basically 
enabled us to kind of stay in business during some of these troubling 
times. The public is requiring that, and this goes beyond forestry now. 
I mean, they are even asking that potato seeds be certified. They want 
to know where the fiber is coming from. They want to know that it's 
sustainably managed and sustainably harvested. And that has helped us 
be able to sell timber to some of the mills that are doing business in 
more than one country.
    And the Master Logger Program is a fairly new program, and there's 
a group of loggers in Wisconsin right now, we have 52 master loggers 
and another 12 to 15, I believe, that are going through the process. 
And what that group does is they basically go through a third-party 
certification. And I believe Maine has the most master loggers, the 
program originated there. They have 142, I believe, at this time. But 
what we do is we go through a third-party certification process. In 
other words, for all aspects of timber management, from on the ground 
to business practices to ensuring that we are following all the 
qualifications, which is best management practices, for logger BMPs are 
you doing the job, are you not running up the woods, are you aware of 
invasive species, are you aware of exotic species and those types of 
things, and they be sure that it's a full package of protection. And 
that's something that we promote. All of our members are trained, but 
the master loggers can take it to the next level. And it's just a 
little bit more of a program that says that you are willing to put your 
business in an audit, that you are going to pass that audit, and that 
you are well aware of what's going on for the whole package when it 
comes to management.
    Mr. Baca. Thank you. In your testimony you indicated, and I've 
heard a couple of different figures, that 20,000 jobs have been lost. 
What impact has it had on the quality of life in the area?
    Mr. Schienebeck. It's basically loss of a whole industry in a 
village or town. In the Village of Butternut where I live we had three 
mills there at one time. We're down to one. Actually, you could say 
we're down to half of one, because most of the people there are laid 
off and they are looking for other things to do and going off. I know, 
that in different areas of the country, there's not much going on 
there, either. Like Mr. Johnson said, that paper mill was shut down, 
that involves a couple of counties in our area. That's the Village of 
Butternut and the City of Park Falls. I mean, it's a two-county 
business. There were 300 some jobs there. When that was shut down for 
the period that it was, it was like a ghost town. Downtown businesses 
were closing up because they are so dependent on that paper mill. And 
those aren't just $9 jobs, they're good paying jobs. They are livable 
wage jobs that put money back into the community. I mean, we've lost 
two schools. We just had a two-school consolidation again. And luckily, 
we were able in Butternut to not have that right now, but it's going to 
come. Eventually they are going to run out of money if we don't do 
something about it, and we live right on Chequamegon-Nicolet National 
Forest.
    Mr. Baca. Maybe Mr. Johnson, you can answer that question or 
elaborate on it, because not only does it impact, when you have a loss 
of jobs, not only in school but the quality of life in the area, but 
the revenue. And, then, also, does it impact the population of those 
communities, too, as well that means as we're going right now, we are 
going to be going through the Census that is coming right before us, 
and so the loss of jobs also will impact the Census and the amount of 
Federal dollars or dollars that will be coming back to the cities and 
counties in the state. Could you elaborate? You mentioned that over 
300,000 some thousand jobs were lost because of the timber market.
    Mr. Johnson. Yes. As Mr. Schienebeck mentioned, in 2006, when the 
mill that we purchased went bankrupt, before we bought it, there was 
definitely an economic impact felt throughout the not just Park Falls, 
Price County, Ashland County region but the entire northwest Wisconsin. 
The fact is we were going through the process of putting together the 
plan to purchase the mill. We invited the University of Minnesota-
Duluth School of Business to put together an economic impact study of a 
mill closure of that size in northwest Wisconsin, that lost 300 jobs, 
and what that has on the economy, and what it showed is about a $200 
million impact not just to the county but really to northwestern 
Wisconsin.
    I'm trying to remember the employment figures that were lost due to 
that, but I can tell you driving through Park Falls from February 16 of 
2006 when it was announced that the mill was closing through July 25, 
2006, when we purchased the mill, took ownership, in the City of Park 
Falls, about 3,000 people, there was well over a quarter of the homes 
that went up for sale. Being a school board member in Hayward, I 
certainly know the impact of losing the facilities and whatnot, and the 
stress that it can cause on the school district is tremendous. 
Thankfully, Park Falls was one of the lucky areas that someone was able 
to come in and resurrect the mill and put 307 people back to work 
there.
    Mr. Baca. Thank you. Ms. Dixon, thank you for being here today and 
for your ongoing work. You represent an important voice in the process 
of public policy. I know that you and the local timber community don't 
always agree, but like Congress, policy is made like sausage; it's an 
unpleasant process with good results.
    Your testimony mentioned fragmentation as a priority for you. Do I 
understand correctly that this refers to the patchwork of the forest 
parcels in the state?
    Ms. Dixon. That is correct. And I would just respond to your 
earlier comment about not seeing eye to eye with the timber community. 
I don't think that's entirely true. It's not the logging community that 
we have issues with. We certainly don't. We recognize logging is an 
important part of Wisconsin's economy. It's necessary, it's appropriate 
in many circumstances and in appropriate amounts. The Forest Service 
and the forest managers are responsible for setting those amounts. And 
it's our opinion, and the opinion of our scientists, clients, and 
colleagues, that some of the timber proposals that have been issued are 
in places that are important for key habitat for wildlife, for clean 
water, and other recreational opportunities. So I would just clarify 
that it's not an issue with the timber community, it's just an issue of 
appropriate amounts and appropriate places.
    Mr. Baca. Thank you. Along the same lines, access to water and 
water conservation are two areas dear and near to my heart with the 
ongoing drought situation in southern California. What is, in your 
opinion, is the best way for us to best utilize the water resources of 
America's forests.
    Ms. Dixon. Best utilize water resources?
    Mr. Baca. Yes.
    Ms. Dixon. I think water is a key issue, particularly in Wisconsin. 
There are a number of--there are thousands of lakes in the state, there 
are private--there are people that enjoy using those lakes for 
recreation, for fishing, trout fishing and so on, so I think 
maintaining access, use, and quality of those water resources is of 
optimal importance. I believe that management of forestlands has a lot 
to do with the quality of our water resources in Wisconsin. As Jeanne 
Higgins testified in the earlier panel, one of the major issues 
associated with logging is sedimentation of water resources. And I 
think I may have mentioned in my written testimony that over half of 
the trout streams in the Chequamegon-Nicolet currently fail to meet 
temperature standards for brook trout, which require cold water 
conditions. Our scientists have told us that some of those impacts are 
a result of management practices not necessarily in recent days, but 
the forest management plan indicates that Wisconsin's water resources 
were heavily impacted by--through the cutover period by excessive 
sedimentation. So we recognize that as a problem, and we believe that 
the Forest Service is taking steps to address that problem, and we 
support their efforts.
    Mr. Baca. Thank you. Mr. Zimmer, what can we do to best promote the 
regrowth of young forest habitat.
    Mr. Zimmer. We have to address the need that's out there. Currently 
the Chequamegon-Nicolet, if you go with the current management level, 
is harvesting, and if we continue that harvest over the next ten years 
or so, we are at lower levels than ever has been, aspen levels, in 
historic times. We need to increase that because we have the suite of 
species and a lot of species that are indirectly related. Even species 
like the northern goshawk, which relies on species for prey that 
utilize young forest habitats, like snowshoe hare and ruffed grouse are 
the top two prey species. There is that interlink that is needed, and 
we need to maintain that habitat across our forest spectrum, and in 
those places we can do it.
    From our standpoint, the people that I work for, we have a big 
desire for hunting ruffed grouse and woodcock, and Wisconsin, the U.P. 
of Michigan, and northeastern Minnesota are the three best places left 
in the United States to hunt ruffed grouse and woodcock. So our folks 
are seeing that every October. Come join us in the October, we will 
take you on a hunt, but also come and see the license plates of the 
visitors to the national forest and the state and county forest in 
northern Wisconsin. It's remarkable how much tourism is in the pursuit 
of just those two species every October.
    Mr. Baca. I may take you up on that as long as I can go golfing.
    Mr. Zimmer. We can work that in.
    Mr. Baca. I know that we are running out of time, but, Mr. Johnson, 
you mentioned biomass. In June, the Subcommittee held a hearing on the 
future of the forest. At that hearing nearly every witness emphasized 
the need for a broad and workable definition of renewable biomass in 
both renewable fuel standards and the renewable electricity standards. 
As a result of that hearing, I worked with Mr. Peterson, as did Dr. 
Steve Kagen, to a get sensible definition in the climate change bill, 
and I am pleased with those results. The definition of renewable 
biomass, as it passed the House, has two important pieces.
    The first is the definition for private land. Mr. Waxman, the 
Chairman of the Energy and Commerce Committee, agreed to include the 
farm bill definition for private lands, and this is a broad definition 
that is already in the law.
    The second piece is for Federal and public lands. The definition 
that was passed in the House permits the use of forest biomass in a 
sensible way. I realize these definitions are not perfect.
    With that, I'd just like to ask if there are any suggestions on the 
best way that we can construct the legislative language, I would 
appreciate your thoughts and any suggestions or ideas that you may have 
in that area.
    Mr. Johnson. Do you want them now or written?
    Mr. Baca. Well, we don't have enough time for it all right now. But 
I would appreciate it, if you can, just make a short comment on that.
    Mr. Johnson. Well, I think the thing that we really need to address 
as we're going forward and in talking definitions and other things, is 
we are trying to promote or to build a new industry. Especially in 
these tough financial times that we are in, to get a new industry off 
the ground like the biorefineries or biofuels or renewable energy 
projects is tough. And one of the top things they are always asking, 
how long is your feedstock supply agreement? And without a solid 
definition moving forward, that allows us to utilize the natural 
resources that we have sustainably, be it private, be it a Federal 
forest, that we are ensured a supply for at least ten to 20 years for 
the financial community, we will never get the funding to get these 
projects off the ground. And it's important, as we push through with 
legislation, with policy, that we keep in mind that these projects are 
only as good as the feedstock that's going to be supplying them.
    And a wide definition, one that certainly allows time to implement 
and to secure the feedstock be it from private or governmental forests 
or field or whatever the case may be in terms of feedstock, is one that 
I think we need to address and continue to push forward to ensure that 
feedstock in the industry.
    Mr. Baca. Thank you. Mr. Kagen.
    Mr. Kagen. Thank you, Mr. Chairman. I'll start off by just making a 
comment or two about how important the forestry industry is not just to 
Wisconsin but to our entire country. We cannot become a stronger 
nation, a nation that's independent of foreign sources of energy, 
without a successful method of sustainably managing our forestlands all 
across the country, whether or not they are county, state, or Federal 
or private forestlands. It is critical that Congress get it right. And 
you've also noticed in this room how important a few sentences are in a 
piece of legislation. So that's why you have experts like physicians on 
the Agriculture Committee. We have to have a secure nation. We can get 
a strengthened national security by having a successful process of 
sustainably managing our forestlands. I think everyone would agree with 
that.
    In this room, we have tremendous assets of institutional knowledge, 
people who have been living and growing up in the forest, not just for 
their own generation, but for several generations. We have tremendous 
talent and knowledge that if we can harness this and really begin to 
work together on some of these problems, we can lead the way here in 
Wisconsin and northern Illinois. We can lead the way in terms of making 
certain that we have sustainable practices not just in the forests but 
also on our farms, because we have the definition now, the trees are an 
agricultural product.
    It's very important as well that the forest industry be successful 
to mitigate climate change. Now more than ever we understand the 
interconnectivity. As an allergist I would say that if you are a tall 
man in China and you sneeze, well, there's an American person here that 
has it on the back of their neck. What they are doing with their 
environment affects us here. That's why 42 percent of the mercury in 
our waterways, in the Great Lakes and our northern lakes and streams, 
came from dirty coal in China.
    Most importantly, in today's economic stressful time, we cannot 
afford to waste any of the trees or branches or debris that fall in any 
forestland anywhere. We have to be very efficient and must not waste 
anything. And I'll remind all of you that, you may already be aware of 
this, but I'll remind you that I'm aware of it, and that is about the 
carbon cycle of our planet. The global carbon cycle has to do with 
where this carbon is located. Well, in our soil, there are 3,195 
gigatons of carbon. In the plants we have 654 gigatons. And every year 
we put into the atmosphere, apart from man's contribution, 58 gigatons 
of carbon. And because of the photosynthesis that takes place in our 
plant life, in our trees, in our forestlands, we take out 58 gigatons 
as well. So what we have to do is reach a balance.
    There was a balance until mankind, in the recent centuries, began 
to kick in seven gigatons of carbon every year due to anthropogenic 
effects of emitting the fossil fuel carbon. What we have to do now is 
mitigate that. And the best way to do it is to manage our soils and our 
forests in a sustainable way.
    So let me just get a head nodding or a raising of the hands of the 
panel to see if we can't agree on one thing, and the one question I 
have is, wouldn't you all agree that we need to do everything possible 
to maximize the carbon dioxide retention in plant life? Would you all 
agree? And isn't it also true that younger----
    Mr. Baca. They have to respond. I mean they nodded their heads. 
Would you, for the record.
    Mr. Kagen. Let the record reflect there was a lot of head nodding 
going on, and it wasn't because they are falling asleep. It's not 
Congress, after all.
    So if we all agree that it's really paramount for the survival of 
our climate, for the survival of our human species and our economy and 
our national defense, our national--strength of our national security, 
we have to remove as much carbon dioxide as soon as possible, isn't it 
a fact, we will start with Henry and move down the line. Isn't it a 
fact that younger trees, rapidly growing trees, take in more carbon 
dioxide than older trees?
    Mr. Schienebeck. To the best of my knowledge, that is correct.
    Mr. Kagen. Ms. Dixon.
    Ms. Dixon. I would actually disagree. That has been common 
knowledge until recently. Studies that have recently come out as early 
as September, I believe it was 2008, and I have copies of the paper 
with me if you'd like to see it, there's a study----
    Mr. Kagen. If you could make those studies available. Mr. Johnson.
    Mr. Johnson. I'd agree.
    Mr. Zimmer. I'd agree.
    Mr. Kagen. Isn't it--doesn't it just make common sense that we have 
to have a rebirth and a regrowth and a replanting of our forests in 
order to replant them and grow our forests anew, don't we have to 
sustainably harvest tree life that exists? Would anyone disagree with 
that statement.
    Ms. Dixon. I'd agree that harvesting can be done sustainably, 
absolutely. But as I mentioned, there are studies showing that older 
trees actually continue to sequester carbon indefinitely. So I would 
echo the comments made by Secretary Frank in the earlier panel that 
carbon sequestration benefits actually would create an incentive for 
leaving more older trees standing, and that's the position that's taken 
by the Environmental Policy Center.
    Mr. Kagen. So we have some disagreement. I look forward to making 
sure we come with some better, more stable agreements--more sustainable 
agreements in the future.
    My question to Ms. Dixon is, who do you believe is best able to 
manage the forestlands, someone who's closest to the farm, or someone 
who's further away?
    Ms. Dixon. I absolutely agree that the Forest Service is the expert 
agency, they have the expertise. There are many, many knowledgeable 
people on the Forest Service staff that have dedicated their lives and 
their careers to managing Federal forestlands.
    Mr. Kagen. So you'd agree people closest to the tree farm, the 
people closest to the forest, might have better knowledge of what's 
going on on the ground.
    Ms. Dixon. I would agree in general. I agree that the policies, 
however, are set at a higher level, and it is to some extent----
    Mr. Kagen. Which leads me to my next question, that is, which 
specific sections of the 2004 Forest Management Plan do you and your 
organization specifically disagree with? And if you don't have time at 
the moment, perhaps you could itemize that in a written response.
    Ms. Dixon. Yes, I'm happy to submit specific written responses.
    Mr. Kagen. I'd appreciate that very much.
    Ms. Dixon. Absolutely.
    Mr. Kagen. Henry, any other comments? You mentioned three things 
that were important. And I really used to enjoy meeting people because 
they put their hand out in the vertical position. But now when they 
come up to me and I'm a Member of Congress, they go for the horizontal 
position. You mentioned funding, full funding. How difficult would it 
be, do you think, for Congress to fully fund the forest plans, to make 
sure that we have the funds necessary to carry out the job of keeping a 
healthy forest.
    Mr. Schienebeck. I wouldn't think it would be that difficult 
because anytime you start to manage the forest, you are bringing money 
back into the system. It's not like we're asking for something for 
nothing all the time and saying, hey, just give us a pot of money and 
we'll go until it's gone and then we'll come back for more. We're 
looking at value added. With biomass and everything, we're looking at 
creating more income and generating revenue from that with the add-on 
product and making the country--and, actually, by the time, I would 
imagine, if you'd figure out how many barrels of oil we don't have to 
buy and how many things that are attached to that barrel of oil, the 
savings could be huge.
    I mean, we look at the forest and, obviously there has been 
mistakes made in the early 1930s and stuff with the cutout and 
everything. Our point of view is basically, I think, we have changed 
all that. I don't think we are over-harvesting because all you have to 
do is drive around on the roads. Go to northern Wisconsin. We have more 
trees throughout the whole country than we have ever had before. I 
mean, scientifically or not, the evidence is there. The trees are 
standing. We are cutting. We have been able to support the industries 
we have so far. Could we do better? Absolutely. We could create more 
jobs, and we can still----
    Mr. Kagen. And could you respond to the written testimony of Ms. 
Dixon and her group about irresponsible logging projects? What do you 
think that means, and do you have any response to that comment and that 
opinion.
    Mr. Schienebeck. I'm not exactly sure. I didn't read that 
testimony. But irresponsible logging, I think, is a thing of the past. 
We have gone through more training in the last 15 years as loggers. 
It's required every year that you continue your education and training, 
and that's forest management, that's safety, that's value of timber 
that you are cutting, how to get the most value out of that product. 
It's best management practices for water it's basic species training. 
All those things we are continually putting classes on, from that to 
the economics part of it. How do you sustain your industry, how do you 
sustain your business, by accounting practices and those types of 
things as well. But it's not all about the money, it's about ensuring 
that that forest is there. I mean, I'm third generational, a lot of the 
members are fourth, and my two sons chose to go somewhere else because 
they didn't see the future.
    Mr. Kagen. Ms. Dixon, what do you think are the responsible logging 
projects? How do you define that.
    Ms. Dixon. Let me just respond for a quick second to Mr. 
Schienebeck's comments. It's not the loggers themselves, as I mentioned 
earlier, it's not the loggers themselves we have issues with. We don't 
believe that the loggers in Wisconsin are doing things irresponsibly. 
We appreciate the amount of training that they go through and the 
amount of expertise that they have in their field. The issue for us is 
the amount of logging that is proposed by the Forest Service.
    Mr. Kagen. Except there are more trees now than we've had before, 
so if we are cutting too many down----
    Ms. Dixon. I think that's generally true. My written testimony, 
however, explains, or at least gives examples, of two specific timber 
sales that we were able to come to an agreement with the Forest Service 
over, and there were very specific areas of those timber sales where 
our scientists, clients, and colleagues determined that if logging 
occurred in those areas, it would have environmental impacts to 
species, habitat, and to clean water. Of the 6,000-acre timber sales, 
specifically I'm thinking of the Boulder timber sale, which is located 
on the Nicolet side of the forest, of the 6,000-acre project, we agreed 
that the Forest Service would defer maybe 1,500 acres of those. So it's 
a small percentage.
    We look at the specific timber projects project by project and 
stand by stand, and if there are--there are usually generally 
significant amounts of the project area where it's appropriate to log 
and necessary, and that's fine for us and our clients, but there are 
often some stands where we believe that logging should not happen. And 
we have had numerous discussions with Forest Service leadership at that 
specific level. So that's all that we are talking about here is really 
portions of larger projects.
    Mr. Kagen. Finally, Mr. Johnson, if you have any other additional 
comments at this time, I'd appreciate hearing them now. I thank you and 
your family for employing more people than less people and doing it in 
a sustainable way, making certain that the economy around you will 
continue to grow, and I really appreciate what you've been doing. Any 
other final comments.
    Mr. Johnson. Thank you. I guess the one thing that I would caution 
Congress and the state and others on is as we move forward and look at 
renewable electricity standards, portfolio standards, and everything 
else is to really have a strong understanding of the feedstocks that we 
are looking at. If we are looking at woody biomass as a feedstock to go 
into a renewable fuel standard, electricity standard, whatever the case 
may be, I just urge the Congress to remember that woody biomass is a 
finite resource and there is truly a best use of wood out there. And 
while we have a great traditional industry going and potential great 
industry coming up with biofuel plants and others, do we really want to 
start putting a finite resource into old technology, such as old 
electric-generating facilities, 25, 30, maybe 35 percent efficient 
facilities, when we can find new technologies, new industries that are 
coming on board, such as a biofuels plant or others, that are coming on 
board making transportation fuel, waxes, electricity, natural gas 
replacements, as long as they have a steam house, and be able to 
utilize 70 to 80 percent of the thermal efficiency within that woody 
biomass instead of the 25, maybe 35 percent.
    As I said, it is a finite resource, and I just urge this body to 
find the best use of wood available and not just throw it because a 
number sounds good or a goal sounds good.
    Mr. Kagen. Mr. Zimmer.
    Mr. Zimmer. What I would just like to say is having lived in the 
north woods for all my life, basically, I see a proud people, hard-
working people, that spend days and days--I know loggers, and I'm not 
really a logger. I cut some wood for firewood and things like that. I 
see guys that get up at 3 o'clock in the morning to get out, work most 
of the day, come back tired, just to make ends meet, at the night. They 
don't want to go on unemployment, and they won't if they can help it. 
We have the natural resources up there. The national forest, \1/3\ of 
it, as you heard from Mr. Schienebeck's comments, \1/3\ is hands-off 
already. Only \1/2\ of the remaining forested land out there is even or 
only \1/2\ of the goals are being met on the remaining portion. Let's 
put that forest to work for these people so they can and I can raise a 
family and raise it the American way. Thank you.
    Mr. Kagen. Amen.
    Mr. Baca. Thank you very much. I appreciate each and every one of 
the testimonies. I know that we've got a lot of work ahead of us as we 
look at the challenges and the solutions. And I appreciate the fact, 
just even the last few statements that were just made about the 
outdated equipment and looking at new technology and looking at how we 
preserve our environment at the same time, how do we create jobs and 
maintain jobs in the area and allow people to put food on the table and 
enjoy their quality of life. These are real people that are being 
affected. These are people that have lost their jobs, don't have a job, 
can't feed their families right now, but are relying upon the forest 
for jobs, whether they are loggers or have any other kind of job, or 
whether they work with Mr. Johnson's timber factory.
    One final statement that I have before I turn it over to Dr. Kagen 
to give his closing remarks, how can state, Federal, and the private 
entities best work together? Because I think that's what Dr. Kagen 
said, how do we all come together and how do we work together in 
looking to solutions to the problems we have. What is impact not only 
in the 21st Century, but how it will impact our future in terms of the 
community? Any final comments you have on that?
    Mr. Johnson. Me directly?
    Mr. Baca. Anyone. Federal, state working together. We all need to 
work together, and private entities as well.
    Mr. Johnson. I think a relationship--as you know, as we look at 
litigation and some other things, we heard in the room before this 
hearing from the gentleman, I can't remember which county he's from, 
county forester, Marinette County, or I can't remember which it was, 
but talking about some of the counties here in Wisconsin passing 
resolutions to say, let us maybe help manage our Federal forests. And 
I'll tell you, the state and county foresters and the work that they do 
is absolutely tremendous. And possibly to help some of this litigation 
that we see coming forward, maybe a partnership between Forest Service 
employees, county foresters, state foresters, come together as a group 
before litigation is pressed and go over it, almost to have the county 
and state portion come in as a third party to look at it until there's 
forest certification on the national forest. Maybe that would be a way 
around some of this costly litigation that costs taxpayers money, costs 
businesses money because our timber is tied up and they can't harvest 
it to produce the product they need. Cooperation to find solutions to 
problems that really don't need to be there I think would be the 
greatest thing, and a great working relationship to find ways around 
this.
    Mr. Baca. Ms. Dixon, from your area.
    Ms. Dixon. Absolutely, I agree that there should be greater 
coordination among Federal, state, and county forest managers. I think 
you may have noticed from my written testimony, Wisconsin landscape is 
fragmented not only by roads and other features but in ownership, and 
greater coordination among those various forest owners would really 
help the process of managing Wisconsin's forestlands overall more 
sustainably.
    There are many forest managers in Wisconsin, the Board of 
Commissioners of Public Lands being one, Menominee Indian Tribe being 
another, that manage their forests in a historically sustainable way, 
and I believe all parties would benefit from having all those forest 
managers talking together more.
    Mr. Schienebeck. I guess I would say let's start looking at the big 
picture. We are in a world economy, not the United States economy, and 
I think that, obviously, we are doing a good job of managing our 
forests now. Can we get better? Absolutely. But if we weren't doing a 
good job, we wouldn't have to sit here and talk about it because nobody 
cared, there wouldn't be anything there to talk about. So that's just 
kind of a simple, straightforward thing that, yes, we are doing a good 
job, we can do better. But when we look at the world picture, what we 
have here and what we can promote, that we are sustainably harvesting 
versus Brazil or somewhere where they are illegally clear-cutting their 
rainforests, or doing things like that, I think we can promote that, 
because we do have the technology, we do have the skill, we have the 
workforce, and we need to have the product out there to be a world 
player.
    Mr. Baca. Thank you.
    Mr. Zimmer. Just kind of a touch-up for Mr. Schienebeck's comments 
there. We have, across the board, you've heard some of the evidence 
today, state, county, Federal, consultants, foresters, things like 
that, we have some of the best experts in the world right here to 
manage our forests. Let's let those experts do the right job and get it 
done.
    Mr. Baca. Thank you. Before we adjourn, I'd like to ask Mr. Kagen 
for closing remarks.
    Mr. Kagen. Well, I'll be the contrarian, as I won't be quite my 
normal self. I'll be brief, how's that. I want to thank Chairman Baca 
for allowing Congress to come here to northeast Wisconsin. I think it's 
very important that the voice of northeast Wisconsin, particularly in 
our timber and lumber industry, our forest industry, get back to 
Washington. I feel like quoting one of my favorite poets, Walt Whitman. 
In one of his poems there was this line that said, ``I'm the grass, let 
me work.'' We've really got to get back to working and taking common-
sense solutions and getting everybody back at work. It's really about 
the success of our economy. We can protect our environment, we can 
secure our nation and harvest our national forests all at the same 
time. It will be great for the health of our forests, great for the 
health of our county and the health of our people. I look forward to 
working with other Members of the Agriculture Committee.
    And I'll say one other comment. In my early 2\1/2\ years of 
experience being a Representative of the people, I'm very proud of some 
of the institutions who have more than three letters in Washington, 
like the USDA. I really believe that they are the closest people that 
can best manage and help to manage our farmland, including our forests. 
I look forward to working with them and making certain that we get full 
funding of programs that need full funding and make certain that we 
eliminate waste wherever possible. But in this economic time we can't 
afford to allow any waste to occur in our healthcare system, in our 
economy, and certainly not in our forestlands. And thank you again, 
Chairman Baca, for allowing this hearing to take place. Thank you all 
for participating. I look forward to working with you.
    Mr. Baca. Thank you very much, Mr. Kagen. As you indicated, working 
together becomes very important to a lot of us as we look at the 
challenges and solutions, both the private and the public sector, and 
working with our educational institutions; whether it's community 
college or a state college or university, and looking at the kind of 
research that we need to do to see where we are today and where we need 
to be tomorrow.
    With that I'd like to thank each of the panelists today for your 
expertise and your knowledge and sharing information as we look at the 
many challenges we face in our economy, and the environment. With that 
I want to thank you. I want to thank Dr. Kagen, again, a special thanks 
for hosting this hearing and making history right here in Appleton by 
bringing Congress here.
    And with that, I'd like to just state that before we adjourn, under 
the rules of the Committee, the record of today's hearing will remain 
open for 10 calendar days to receive additional materials and 
supplementary written responses from the witnesses to any questions 
posed by any Members of this hearing. The Subcommittee on Department 
Operations and Oversight, Nutrition, and Forestry is now adjourned. 
Thank you very much.
    [Whereupon, the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
      
     Submitted Statement of David P. Bartz, Sturgeon Bay, Wisconsin
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    I am writing to ask for your support in improving the management of 
the Chequamegon-Nicolet National Forest. The CNNF has greatly reduced 
the amount of timber available for sale in the past 10 years. Currently 
the CNNF is harvesting less than half of the timber volume in their 
allowable harvest plan. This translates to a huge loss of revenue to 
local communities from direct Forest Service payments, and a 
significant reduction in the wood needed to sustain our forest 
industry.
    Wisconsin communities within the national forest boundary are being 
shorted over $5 million annually in direct payments from the Forest 
Service that would be paid if the national forests were managed 
sustainably. This is placing an unfair tax burden on property and 
business owners who cannot continue to make up this deficit.
    Last year the CNNF failed to harvest 88 million board feet of 
timber available for harvest in their management plan. That shortfall 
is exporting the demand for timber to private lands that are unable to 
supply the volume needed to sustain Wisconsin's forest industry. Over 
7500 jobs have been lost in the paper industry since 2000. Nineteen 
large sawmills have closed in the last 5 years, and 23% of our logging 
contractors have gone out of business in the last 10 years.
    I understand the public pressure and the politics involved with 
managing our national forests. Certainly the long term health of our 
forests is the ultimate desire of most people concerned. A great deal 
of public and professional involvement went into writing the harvest 
plan for the CNNF. I strongly feel that getting the Forest Service to 
follow that plan is the best way to maintain a healthy forest and all 
of the benefits it provides.
    I thank you for the interest you have taken in our national forests 
and our industry. Your help in improving the harvest level on the CNNF 
would be greatly appreciated. If there is anything I can do to help in 
that regard please let me know.


    Sincerely,
    Steve Guthrie, Woodlands Manager
    Nicolet Hardwoods Corporation
    [REDACTED]
                                 ______
                                 
 Submitted Statement By Steward P. Harrison and Michael J. Schwantes, 
 Partners, Timberland Power Company, a division of Creative Energy and 
               Data Solutions, LLC, Green Bay, Wisconsin
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    United States Forest Service
Great Divide Ranger District
P.O. Box 896, 10650 Nyman Avenue
Hayward, WI 54843
    14 December 2008
    ATTN: Twin Ghost Project
    Dear Sir or Madame:
    I find it ironic that this fall, shortly after the completion of a 
survey of the Federal land which abuts my private property; that a cut 
is scheduled for the second growth old growth northern hardwood forest 
on the land immediately surrounding my land. Until the latest survey 
some of this property was under my purview since no one knew where the 
actual boundary lines were for many years. But shortly after this 
survey, which took some of the forest away from me, most of the north 
boundary line abutting my private land on the Federal side is scheduled 
for a select cut in areas identified as 384/014, 384/034 and 384/015. 
These areas have scattered, mature, and healthy Red Oak, Sugar Maple, 
and a basic mix of a northern hardwood forest. The same applies to the 
southeast inside corner, 395/005, butting up to my private property and 
a portion of which fell under my purview-again because neither the U.S. 
Forest Service nor I knew where the property line lay.
    These designated areas have large healthy Red Oaks, Large Sugar 
Maple, and a mix of northern hardwood species throughout them. The 
trees are not dense.
    The areas mentioned above are a second growth forest well over 100 
years old. I remember during the early 1990s there was a similar select 
cut on the south side of Christy Lake; mainly the Red Oaks were cut. I 
called to inquire regarding it and I was told this select cut was to 
regenerate the Red Oaks. Well, I see little if any regeneration of the 
Red Oaks in that cut. I question cutting healthy acorn bearing Red Oaks 
to ``regenerate'' Red Oaks because I have seen it fail. I assert that 
it is just a ploy the USFS uses to promote the interests of industry. 
Some years after the 1990s select cut I tried to get Barry Paulson a 
Great Divide Ranger to come with me and visit the site on the south 
side of Christy Lake to see how it was a failure-he never did come to 
see.
    There are many species which require mature trees to survive 
without stress. The areas I have identified are doing just fine by 
allowing Nature to take its course. Nature certainly does not need the 
USFS to interfere. Allowing trees to live life with the natural 
elements-in my eyes is the very correct way--especially in the areas I 
have mentioned around my property. Again they are second growth old 
growth forests, well over one-hundred years old. Why are they not 
documented as second old growth forest and be done with it? All the 
USFS does is identify them as areas to be select cut! Are you afraid 
someone like me who realizes the value of Nature in and of itself will 
question the validity for such cuts? You made no attempt to state the 
actual age of the trees or the density of the areas or the age of any 
of the Twin Ghost Project and very possibly in the Cayuga or Twenty 
Mile projects. It does make a difference to the public, which you seek 
comment from. It is like leaving out a piece of the puzzle.
    This whole Twin Ghost Project has come about much too quickly and I 
take that view. The comment period is also during the holiday season 
and it may not be getting the full attention it needs from the public. 
There needs to be a much longer public comment period, even until after 
the holidays, when a new president of the United States of America may 
greatly change the present practices of the USFS.
    The timing of this cut is also suspect because District Ranger 
Connie Cheney and some of her staff have been harassing me in other 
ways ever since the ATV signing fiasco for which they were responsible. 
They handled the ATV road signing issue so poorly when they were 
supposed to work cooperatively with the Spider Lake Town Board, the 
town Comprehensive Land Use Committee and the citizens of the Town of 
Spider Lake. The entities were to agree first, BEFORE any ATV use signs 
were installed. However the USFS did not honor this commitment. They 
have made myriad other mistakes such as leaving FR 671 as an ATV use 
road, even when they knew of my official written complaints regarding 
its being left open to ATV traffic. I have called them on each of their 
missteps and now, just to show me, they have planned a project to 
select cut trees in second growth old growth forest right up to my 
property line.
    Leaving the pencil straight perfect trees for the next cut may not 
be the answer to forest health that the USFS thinks it is. Nature's 
natural selection works just fine.
    Thank you for your time and attention to this matter.
            Truly,

Richard R. Hogue
005N FR 208
Clam Lake, WI 54517
[REDACTED]
                                 ______
                                 
  Submitted Statement By Steve Kariainen, Resource Manger, Louisiana 
                pacific Corporation, Hayward, Wisconsin
    Mr. Chairman and Committee Members:
    Thank you for having the recent hearing in Appleton to address 
forest management issues in northern Wisconsin. Although I could not 
attend, I wish to submit the following:
    For the last 30 years I have worked in forestry and wood 
procurement for Louisiana Pacific Corporation in Hayward, Wisconsin. 
Over that time I have witnessed a significant improvement in both the 
practice of forestry and the public's perception of forestry. As you 
know, logging is a very important and highly visible aspect of forest 
management.
    During my career I have had the pleasure of working with hundreds 
of different logging contractors and wood suppliers. I have developed a 
deep respect and admiration for loggers, as they epitomize the 
independent, entrepreneurial spirit that has been such an important 
part of our American heritage. Logging has evolved over the years to 
become much less dependent on brawn and much more dependent on brains. 
Modern logging machinery is very productive, yet is light on the 
landscape. Today's loggers require extensive training in both equipment 
operation and in environmental protection.
    In spite of all of the advancements in the logging profession, I am 
very concerned that the logging profession in Wisconsin is at risk. 
Because loggers are generally family businesses in rural communities, 
the risk extends to those families and communities.
    There is no physical shortage of timber in Wisconsin. According to 
USFS FIA data we have almost twice as much timber volume in Wisconsin 
today as we had fifty years ago. But each year in Wisconsin we lose 
almost as much timber to natural causes as is harvested. In other 
words, there is a tremendous opportunity to make more timber available, 
thereby making all of the businesses and communities that depend on the 
timber more stable and secure.
    Timber harvested from Wisconsin forests has traditionally been used 
primarily for pulpwood and for logs. We are already seeing increased 
demand for wood fuel in some areas, and there is good reason to believe 
the demand for wood fuels will grow in proportion with increased 
investments in woody biomass technology.
    Failure to address the growing wood fuel demand with additional 
wood fiber supply will place both traditional and emerging wood users 
in jeopardy. It will also put undue strain on the loggers and truckers 
who deliver wood from the forest to the mills for processing.
    I ask that you support efforts to require all national forests to 
develop harvest plans consistent with their long-term biological 
capability (allowable sale quantity or ASQ) and to provide the funding 
support to ensure the plans are implemented. For example, our 
Chequamegon-Nicolet National Forest is one of the most productive of 
all national forests, yet has only harvested 53% of ASQ from 2005 
through 2008. Managing the national forests to their full potential 
will help to ensure a healthy future for Wisconsin's forests and for 
the family businesses and rural communities that are such an important 
part of the fabric of life in Wisconsin.
            Thank you.

    Steve Kariainen
Resource Manager
Louisiana Pacific Corporation
[REDACTED]
                                 ______
                                 
Submitted Statement By Mark K. Leach, Ph.D., Bro Professor of Regional 
 Sustainable Development and Associate Professor of Biology, Northland 
                      College, Ashland, Wisconsin
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
